<html>
<title> - [H.A.S.C. No. 114-135] PRESIDENT OBAMA'S NUCLEAR DETERRENT MODERNIZATION PLANS AND BUDGETS: THE MILITARY REQUIREMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-135]

                       PRESIDENT OBAMA'S NUCLEAR
  DETERRENT MODERNIZATION PLANS AND BUDGETS: THE MILITARY REQUIREMENTS

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 14, 2016

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  
  
                                   ______
  
                           U.S. GOVERNMENT PUBLISHING OFFICE 
  
  20-822                         WASHINGTON : 2017 
  -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
















                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Haney, ADM Cecil D., USN, Commander, U.S. Strategic Command......     4
Klotz, Lt Gen Frank, USAF (Ret.), Administrator, National Nuclear 
  Security Administration........................................     1
Rand, Gen Robin, USAF, Commander, Air Force Global Strike Command     5
Scher, Hon. Robert, Assistant Secretary of Defense for Strategy, 
  Plans, and Capabilities, Department of Defense.................     3

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    42
    Haney, ADM Cecil D...........................................    58
    Klotz, Lt Gen Frank..........................................    44
    Rand, Gen Robin..............................................    74
    Rogers, Hon. Mike............................................    39
    Scher, Hon. Robert...........................................    52

Documents Submitted for the Record:

    By Mr. Cooper:
      Henry Kissinger-Brent Scowcroft op ed......................    94
    By Mr. Franks:
      Statements on the importance of the LRSO...................    96
    By Mr. Garamendi:
      Former Secretary of Defense William Perry article..........   100
      Ranking Member Adam Smith article..........................    98
    By Mr. Rogers:
      Letter to Secretary of Defense Carter from Senators........    92
      President Obama letter to Senator Alexander................    91
      President Obama message to Senate..........................    89

Witness Responses to Questions Asked During the Hearing:

    Mr. Zinke....................................................   105

Questions Submitted by Members Post Hearing:

    Mr. Aguilar..................................................   118
    Mr. Cooper...................................................   111
    Mr. Garamendi................................................   115
    Mr. Rogers...................................................   109
    Dr. Wenstrup.................................................   119











 PRESIDENT OBAMA'S NUCLEAR DETERRENT MODERNIZATION PLANS AND BUDGETS: 
                       THE MILITARY REQUIREMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Thursday, July 14, 2016.
    The subcommittee met, pursuant to call, at 2:33 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. The House Armed Services Subcommittee on 
Strategic Forces will come to order. We welcome everybody to 
our hearing today. It is a hearing titled, ``President Obama's 
Nuclear Modernization Plans and Budgets: The Military 
Requirements.''
    I want to thank all of our witnesses for being here and the 
time it took for them to prepare for this hearing. It takes a 
lot of time. I know it is aggravating, but it is very helpful 
to us. And we really appreciate your service to our country, 
but also the time and energy it took to prepare for this 
hearing and your making yourself available.
    Because of scheduling, we have kind of gotten in a time 
crunch. So the ranking member and I have agreed to dispense 
with our opening statements. And we would advise the witnesses 
that your opening statements will be accepted for the record 
and ask each of you if you could spend about 3 minutes just 
summarizing the broad text so we can get to the meat of the 
hearing, which is really the Q&A.
    So our witnesses today are the Honorable Frank Klotz, 
Administrator, National Nuclear Security Administration; the 
Honorable Robert Scher, Assistant Secretary of Defense for 
Strategy, Plans and Capabilities; Admiral Cecil Haney, 
Commander, U.S. Strategic Command; and General Robin Rand, 
Commander, Air Force Global Strike Command.
    And with that, General Klotz, you are recognized for 3 
minutes.
    [The prepared statements of Mr. Rogers and Mr. Cooper can 
be found in the Appendix beginning on page 39.]

 STATEMENT OF LT GEN FRANK KLOTZ, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Klotz. Thank you Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee. Thank you for the 
opportunity to discuss the nuclear modernization program. This 
committee's leadership and its steadfast support for nuclear 
security enterprise have been vital to the Nation's ability to 
maintain a credible deterrent and a safe, secure, and effective 
nuclear arsenal.
    The nuclear deterrent is a foundational capability of U.S. 
national security. Although it has been decades since the end 
of the Cold War, our nuclear enterprise continues to play an 
essential role in preventing conflict and deterring attacks 
upon the United States, our Armed Forces, and our allies and 
friends, in an increasingly complex and unpredictable 
international environment.
    We must, therefore, maintain nuclear deterrent 
capabilities, not only for ourselves, but also for our allies 
and partners around the world. As NATO [North Atlantic Treaty 
Organization] reaffirmed just last week in its Warsaw Summit 
Communique, and I quote, ``The strategic forces of the 
Alliance, particularly those of the United States, are the 
supreme guarantee of the security of the Allies.''
    Now following direction provided by successive Presidential 
budget requests and in congressional legislation, the 
Department of Energy and the NNSA [National Nuclear Security 
Administration] are currently extending the life of four of the 
weapons in our stockpile and modernizing the facilities and 
infrastructure at our national security laboratories and 
production plants.
    The scope, budgets, and schedules of the LEP [life 
extension program], the infrastructure modernization, and the 
DOD [Department of Defense] delivery systems have been fully 
integrated and coordinated in a tightly coupled plan.
    As a result of consistent funding provided by Congress and 
the significant improvements NNSA has made in program 
management over the past 2 years, all of our LEPs are on 
schedule and within budget.
    However, we are long overdue for an updated, smaller, safer 
complex that will meet military requirements. I can think of no 
obstacle that poses a greater risk to the long-term success of 
our work than the current state of NNSA's aging infrastructure.
    To address immediate mission needs, we have begun major 
investments in the capabilities identified in the Nuclear 
Posture Review, including building a new uranium processing 
facility in Tennessee and replacing the chemical and metallurgy 
research building at Los Alamos in New Mexico.
    We are also pursuing third-party financing and public-
private partnerships to complement traditional line item 
capital construction projects as a faster, and in some cases, 
more effective and efficient means of providing appropriately 
sized and modernized facilities for our 21st century operations 
and workforce.
    We believe greater use of such approaches should continue 
to be aggressively explored, and we appreciate this committee's 
strong endorsement of that view.
    In closing, America's nuclear deterrent remains a 
foundational capability for the security of the United States 
and its allies. NNSA will continue to assure the stockpile 
remains safe, secure, and effective without nuclear explosive 
testing. But achieving our plans for tomorrow's stockpile 
requires adequate resources, balanced investments, and a 
constancy of purpose.
    Thank you for the opportunity to address you this 
afternoon, sir.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 44.]
    Mr. Rogers. Great.
    No pressure, Mr. Scher. You are recognized for 3 minutes.

STATEMENT OF HON. ROBERT SCHER, ASSISTANT SECRETARY OF DEFENSE 
  FOR STRATEGY, PLANS, AND CAPABILITIES, DEPARTMENT OF DEFENSE

    Mr. Scher. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today, and I will dive right in.
    President Obama's approach to reducing nuclear dangers has 
consistently included two key pillars: working toward a world 
without nuclear weapons, and maintaining effective deterrence 
along the way.
    Because we cannot responsibly count on achieving global 
disarmament before the U.S. arsenal ages into obsolescence, we 
must proceed with modernized replacements to maintain our 
nuclear deterrent for us and our allies.
    In multiple reviews, the administration concluded that 
stable deterrence is best provided by sustaining our nuclear 
triad and dual-capable aircraft [DCA]. The triad and DCA 
provide the credibility, flexibility, and survivability to meet 
and adapt to the challenges of a dynamic security environment 
without requiring us to mirror every nuclear weapon systems 
others might employ.
    The need to sustain effective deterrence and strategic 
stability drives the requirement to modernize U.S. nuclear 
forces. And we must make investments now to have replacements 
ready when needed.
    Contrary to frequent mischaracterizations, we are not 
spending a trillion dollars on nuclear modernization. The 
modernization costs, spread over 20 years, will be an estimated 
$350 billion to $450 billion.
    While not a small amount of money, as you know, the total 
defense budget in fiscal year 2016 alone was over $580 billion. 
The cost for nuclear modernization is substantial, but it is 
not unreasonable for what Secretary Carter has called the 
bedrock of our security.
    Our modernization plan is also consistent with the 
President's Prague agenda. It directly supports U.S. 
nonproliferation and disarmament objectives by enabling 
reductions in our arsenal while continuing to assure allies 
that they do not need their own nuclear capabilities.
    Claims that U.S. modernization signals a nuclear arms 
buildup or a renewed arms race do not fairly characterize our 
activities and those of other countries.
    Recapitalizing the triad will preserve existing military 
capabilities for preventing both large-scale and limited 
nuclear attacks, even as threats evolve. To deter massive 
nuclear attack, the United States must maintain a force that is 
invulnerable to a disarming first strike.
    Strategic stability requires a solid foundation that is not 
susceptible to any single point of failure, and each leg of the 
triad makes its own unique and critical contributions.
    While a massive nuclear strike would bring the greatest 
devastation imaginable, the more acute threat might be a 
limited attack aimed at coercing, rather than destroying, the 
United States or its allies.
    An adversary faced with losing a war of aggression might 
use a small number of nuclear weapons against U.S. forces or 
allies in an attempt to force capitulation. Our unwavering 
commitment to the security of our allies should make it clear 
that this would be a grave miscalculation destined to fail.
    Nuclear deterrence and disarmament share the same ultimate 
goal of reducing the risk of nuclear war. As we continue to 
work towards a world without nuclear weapons, effective nuclear 
deterrence is an imperative we must not ignore.
    Thank you and this committee's support for that effort.
    [The prepared statement of Mr. Scher can be found in the 
Appendix on page 52.]
    Mr. Rogers. Admiral Haney, you are recognized.

STATEMENT OF ADM CECIL D. HANEY, USN, COMMANDER, U.S. STRATEGIC 
                            COMMAND

    Admiral Haney. Good afternoon, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of this committee. I 
am honored to be here today, not only to be with these 
professionals, but representing all the sailors, soldiers, 
airmen, and marines and civilians that provide strategic 
deterrence day in and day out.
    These professionals represent our most precious resource 
and deserve our unwavering support. As a result of their 
efforts today, our Nation's strategic nuclear deterrence force 
remains safe, secure, and effective and ready, and strategic 
stability is sustained.
    That said, our capabilities as a whole have lasted well 
beyond their designed service life. And it is crucial that we 
modernize our strategic deterrence capabilities, which underpin 
our national and global security.
    You know the threat. You have had many briefs, including 
with me, over countries like Russia, China, North Korea, in 
their pursuit associated with nuclear capabilities.
    Comprehensive strategic deterrence and assurance and 
escalation control require a long-term approach, and it is far 
more than just nuclear weapons and platforms.
    The President's budget for 2017 provides a great balance 
between national priorities, fiscal realities, and begins to 
reduce some of the risks we have accumulated because of 
deferred maintenance, sustainment, and modernization. This 
budget supports my mission requirements.
    But let me be clear, there are no margin to absorb new 
risk. When you look at our triads, we must move forward with 
replacement programs for our intercontinental ballistic missile 
programs.
    The Ohio replacement program is my number one priority, due 
to the fact that we already have a degradation in that 
capability over some years due to delays in execution of that 
program.
    Similarly, our bombers provide us the air-delivered nuclear 
weapons, which offer unique strategic deterrence value 
associated with air capability that provides both strategic and 
extended deterrence. And our stockpile is safe, secure, and 
effective, but it is the oldest it has been.
    And as a result, we need to continue to move forward life 
extension programs and our strategy called the 3+2 warhead 
strategy. That is a long-term approach.
    At the end of the day, we must ensure that no nuclear-armed 
adversary can think that they can escalate their way out of a 
failed conflict. They must perceive that restraint is the best 
course of action.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Haney can be found in 
the Appendix on page 58.]
    Mr. Rogers. Thank you, Admiral Haney.
    General Rand, you are recognized.

STATEMENT OF GEN ROBIN RAND, USAF, COMMANDER, AIR FORCE GLOBAL 
                         STRIKE COMMAND

    General Rand. Chairman Rogers, Ranking Member Cooper, 
members of the subcommittee, as I complete my inaugural year as 
the commander of Air Force Global Strike Command, thank you for 
allowing me to appear with my United States Strategic Command 
boss, Admiral Haney, to represent our striker airmen.
    As you know, Air Force Global Strike Command was created to 
provide a focus on the stewardship and operations of two legs 
of our Nation's nuclear triad while also accomplishing the 
conventional global strike mission. A key to our continued 
success will be our ability to modernize, sustain, and 
recapitalize our forces.
    Therefore, it is imperative we be flexible enough to 
operate seamlessly in a world that continues to rapidly change. 
Potential adversaries continue extensive, some claim 
unprecedented, modernization efforts across the full spectrum 
of their nuclear capabilities.
    Therefore, Air Force Global Strike Command's mission set 
needs to continue to evolve and grow as we strive to provide 
highly effective combat forces to our Nation's combatant 
commanders.
    Hence, my focus is to make sure Air Force Global Strike 
Command is rightsized with our manpower and resources, while 
balancing necessary modernization and recapitalization 
programs.
    I look forward to addressing any questions you have about 
our modernization plans for the Minuteman III ICBM 
[intercontinental ballistic missile] system, our bomber fleet, 
the air-launched cruise missile, the UH-1N helicopter, our 
current B61 weapon series, our nuclear weapon storage areas, 
and our nuclear command and control communications weapon 
system.
    Finally, I am prepared to offer my opinion on the 
consequences to our Nation's and our allies' security if these 
already long-overdue modernization efforts are not carried out 
according to their scheduled timelines.
    Again, thank you for the opportunity to appear before this 
committee to highlight the need for modernization across Air 
Force Global Strike Command. I stand ready to address your 
questions.
    [The prepared statement of General Rand can be found in the 
Appendix on page 74.]
    Mr. Rogers. Thank you, General.
    Thank all of you for your outstanding statements. I want to 
start the questioning.
    Admiral Haney, I want to ask you about the overarching 
strategic picture in the national security environment that our 
nuclear forces are operating within and trend lines that you 
see right now.
    You have been doing this a long time. And as deputy 
commander of Strategic Command around the time when our current 
nuclear consensus was forged in the Strategic Posture 
Commission, the Nuclear Posture Review, the New START 
[Strategic Arms Reduction] Treaty, and the commitment to 
President Obama's nuclear modernization plan.
    So you have seen where we were in 2009 and certainly have a 
good sense of where we are now, and I think where we are 
heading, based on the conversations I have had with you.
    So give us your professional military opinion. What do you 
see as the trend lines in our national security and our 
strategic picture since 2009? And are things getting better or 
worse?
    Admiral Haney. Chairman, thank you for the question. You 
know, as I look over this time period, and it is unfortunate 
that we see where our relationship with Russia has occurred, 
starting with that as one of our five challenges you often hear 
us talk about, Russia, China, North Korea, Iran, and violent 
extremists.
    Russia has not only modernized a lot of their capability in 
terms of the nuclear part of the business, that includes not 
just silo base intercontinental ballistic missiles. They also 
have mobile base intercontinental ballistic missiles, which 
means they can move them around--harder to find.
    They also have modernized their submarine program. They are 
continuing to do so. And they have also modernized some of 
their air capability, and continue to do so, including air-
launched cruise missiles, both conventional and nuclear 
variants.
    Russia has been working on modernizing both conventional 
and nuclear capability, as well as cyber and counterspace 
capability. And capability is one thing. It is what they do 
with it and how they talk about it is just the other thing.
    The other piece that has changed is the provocative nature 
of statements that have been made by Russian leaders associated 
with that. And the display of their capabilities, such as long-
range strategic aircraft flights in other areas around the 
world without transponders on and those kind of things, what I 
would say is other provocative kind of actions that when you 
add them all together it is not in a good place.
    And I am hopeful that that will improve, associated with 
our whole-of-government efforts, which is a big part of 
deterrence going forward. But that is Russia.
    China, while you are looking at some of the activity in the 
South China Sea, has also been a country that has also 
developed and modernized their nuclear and strategic 
capabilities in the same areas: nuclear, space, and cyber. And 
in particular in the nuclear piece, they are not as 
transparent.
    When you look at Russia and the United States, we have the 
associated treaties, such as New START treaty, that allow us 
transparency and visibility, which is a good thing in terms of 
those weapons that come under that treaty.
    It doesn't cover all the nonstrategic nuclear weapons that 
Russia has, but in China's case, we don't have such a thing. So 
we don't have the transparency, in terms of not just what they 
have but in the direction in which they are going.
    And then, of course, North Korea has been in the news quite 
a bit here in terms of their aspirations and associated tests, 
both nuclear tests, missile tests, and what have you. Even 
recent at-sea tests that shows that piece. Those are the things 
that I have seen specifically change.
    In Iran's case, of course, having the Joint Agreement there 
has put a change, in my opinion, in the other direction by at 
least giving us leverage and also some visibility in terms of 
what is going on in that nation.
    While they still have other activities, a lot of testing 
going on with missile programs and what have you, from a 
nuclear standpoint there is a mechanism now. And that piece is 
different as well.
    So in the balance of things going through those particular 
areas in a succinct manner, clearly in an unclassified form, 
but it is something that we have to balance in terms of 
maintaining strategic stability, given those directions and 
developments that those nations have been after.
    Mr. Rogers. Well, thank you. As you and I have discussed, 
there are some outside advocacy groups who have been calling 
for changes in our nuclear programs and policies, as well as 
our modernization plans. More specifically, there is discussion 
and pressure on this administration to either delay or cancel 
the LRSO [long-range standoff weapon] and GBSD [ground-based 
strategic deterrent]. Can you share your thoughts on whether 
that would be a wise course of action or not?
    Admiral Haney. First, I would say here, as I mentioned in 
my opening statement, I am very pleased with the President's 
budget for 2017 that is over here, in terms of meeting the 
direction and efforts here to modernize where we need to, not 
just the nuclear weapons, but all the way through the national 
nuclear command and control capabilities, sensing apparatus, 
and what have you.
    From my perspective, we need to modernize those things, and 
the future for our intercontinental ballistic missile program 
is very important. So moving forward with ground-based 
strategic deterrent, GBSD as we call it, is paramount in terms 
of the capabilities we need for that part of the triad.
    And from an air leg, you mentioned the long-range standoff 
cruise missile. That missile, too, is very important in terms 
of having an effective air leg.
    In order to have comprehensive deterrence, this requires us 
to have a complex problem for an adversary. And consequently, I 
would say today we really need to make sure our triad is a 
credible capability. Not just today, but well in the future, 
and that is why those programs are so important.
    Mr. Rogers. Great.
    General Rand, the same question. But I would ask, in 
addition to discussing whether you think it is wise to postpone 
or delay or to terminate the LRSO or GBSD, these same advocacy 
groups are arguing that in the alternative--and I make the 
reference because you made reference to it in your opening 
statement--that we should instead just try to further upgrade 
or modernize the Minuteman III. So share your thoughts on 
those----
    General Rand. Yes, sir. Well, I welcome that opportunity. I 
would break it down into two areas. I would look at weapon 
systems, and there are two issues I am concerned with, 
reliability and survivability. In reliability, we get the 
greatest vote in that. In survivability, enemy and potential 
adversaries have a vote in that.
    Our current systems today are becoming increasingly 
difficult to remain reliable. They are getting old. And it is 
harder. And certainly, with the enemy's vote in the increasing 
A2/AD [anti-access/area-denial] environment that we are going 
to be operating in if we use nuclear weapons and/or our 
conventional weapons, it is much more difficult.
    And so GBSD and LRSO, in my opinion, are very, very 
important that we go to that so that we can make sure that if 
we ever use these weapons as intended, we have a high 
probability of success that they will hit their intended 
target. And so delaying those would be of great concern to me.
    Mr. Rogers. What about the efficacy of just upgrading the 
Minuteman III as opposed to replacing the GBSD?
    General Rand. Sir, I think that is unwise. I think that for 
many reasons the Minuteman III now is coming up on its 50th 
year in service. It is difficult. There are efficiencies to be 
gained with a new system. A lot of efficiencies with manpower, 
with command and control, with the reliability, and certainly 
then the survivability aspect of that weapon.
    And from a cost savings, I know we talked about there will 
be some costs associated with this, but over the life span of 
the program we will make a lot of efficiencies that will start 
getting return on the dollar when we go to this in terms of 
manpower, the maintenance requirements and the command and 
control of our facilities that we have. So there is a lot of 
benefits that will come with that over the course of the life 
span.
    Mr. Rogers. Great.
    The Chair recognizes the ranking member for any questions 
he may have.
    Mr. Cooper. I, too, would like to welcome the distinguished 
witnesses, and I will be very brief. I have two questions on 
topics that are coming up in conference.
    First, Admiral Haney, is there any military requirement to 
keep the W84 cruise missile warhead that has been slated for 
dismantlement prior to 2009--that had been slated for dismantle 
prior to 2009?
    Admiral Haney. Congressman Cooper, I don't. You know, once 
a piece goes into the retirement listing, they are--to me, it 
is ready for disposal. And those associated weapons, like a 
W84, that are there, to my mind, should be disposed of.
    The only savings of, you know, as we look at our inactive 
stockpile as a whole, is to ensure we have the requisite parts 
and pieces, if you will, in case we have a technical or a 
geopolitical issue. But the W84 it is not one of those from my 
standpoint.
    I would think it may be good to ask General Klotz some of 
the question from an NNSA perspective.
    Mr. Cooper. General Klotz, do you have a viewpoint on that?
    General Klotz. Mr. Cooper, are we going to have a 
classified session after this? Is that still----
    Mr. Cooper. Yes.
    General Klotz. I would like to take that to a classified 
session, if I could.
    Mr. Cooper. General Klotz and Admiral Haney, regarding the 
NDAA [National Defense Authorization Act] that the House 
passed, the provision regarding restricting dismantlement, what 
are the consequences for the life extension programs if we 
restrict dismantlements the way the House-passed NDAA suggests? 
Does that also have to be held for classified?
    General Klotz. No, that doesn't. I would be very happy to 
address that, Congressman Cooper. As you know, the 
administration had requested in the President's fiscal year 
2017 budget request that we increase the funding available for 
dismantlement.
    We have been spending roughly about $50 million a year to 
do dismantlement, which involves largely disassembly work at 
the Pantex Plant in Amarillo, Texas, and the Y-12 Plant in Oak 
Ridge, Tennessee. We wanted to increase that to $67 million to 
accelerate the process by which weapons that have already 
retired, are already in the dismantlement queue, would be 
dismantled.
    Part of it was to live up to a pledge that Secretary of 
State Kerry made at the Nuclear Nonproliferation Treaty Review 
Conference in New York last year, that we would accelerate 
dismantlement.
    We also saw it as an advantage in the sense that, one, it 
would allow us to hire a lot more technicians at both Pantex 
and at Y-12. We estimated about 30 to 40 at Pantex and about 
half that amount at Y-12.
    Now, while those people would initially be trained to do 
dismantlement, in order to do that work they would have to get 
the necessary security clearances and some of the basic skills 
associated with working with nuclear weapons so that we could 
also, at some point, use them for other key and critical work 
associated with life extension programs, surveillance, and 
other sorts of things.
    So we continue to think that that is an important thing for 
the country to do. And it is an important thing for NNSA to be 
able to do.
    Mr. Rogers. The Chair recognizes the gentlemen from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, and also thank you 
for holding this hearing. And I thank all of you for how you 
are serving our country.
    There is a lot of chatter out there from some disarmament 
advocates pushing a no-first-use policy. However, President 
Obama considered and rejected that type of policy in both the 
2010 Nuclear Posture Review and the 2013 nuclear employment 
guidance.
    So, Secretary Scher, do you agree that before we would ever 
adopt--and I would hope we wouldn't--but before we would ever 
adopt a no-first-use policy, we would want to consult with 
allies like NATO allies or Asian allies such as Japan and South 
Korea?
    Mr. Scher. Certainly. I think there is no question that one 
of the key pieces to our declaratory policy is not just 
deterrence against conflict with the U.S., but protection of 
our allies. And hence, I would imagine and could not imagine 
that we could change the policy without talking to our allies 
and friends who would be affected by this.
    Mr. Lamborn. And there are no such discussions taking place 
currently?
    Mr. Scher. No such official discussions are taking place. 
There has been no decision within the administration to change 
the no-first-use policy.
    Mr. Lamborn. Thank you. That is reassuring.
    Admiral Haney, when the Nuclear Posture Review says that 
the U.S., quote, ``Will work to establish conditions under 
which such a policy, the no first use policy, could be safely 
adopted,'' unquote, has the U.S. come any closer to achieving 
those kinds of conditions that would allow for a safe adoption 
of a no-first-use policy?
    Admiral Haney. Congressman, in terms of the conditions that 
would be required, I am not at a good position to list what 
those are here in this open hearing. I would just say that we 
know the current policy has served us well over many years and 
that it will get--you know, if there is some movement to change 
that, that would require some scrutiny to make sure we are not 
going to impact strategic stability at large by such a move.
    Mr. Lamborn. Well, then could you then comment on how such 
a policy, were it ever to be adopted, would be a limit on a 
future Commander in Chief in maybe an unacceptable way?
    Admiral Haney. Well, I would just generalize and say that, 
you know, as I look at part of my job as commander of Strategic 
Command and what I am responsible for in developing plans and 
what have you, the real key for me is making sure I can 
maximize Presidential decision space and options. So that is 
sort of the approach that I would put globally to most of these 
things.
    Mr. Lamborn. And what would be your best military 
professional advice regarding whether the U.S. should adopt a 
no-first-use policy or not?
    Admiral Haney. Well, given the earlier question that 
Chairman Rogers asked associated with where our strategic 
conditions around the globe, that I outlined, I would want to 
ensure that we had some serious deliberations in terms of 
trying to balance how that would help, if you were to change 
that, in terms of its impact on strategic stability.
    So, you know, I only have a personal advice in this regard 
that we need to be very careful given the directions and 
developments that we see around the world, that we do 
everything in our power to maintain strategic stability.
    Mr. Lamborn. Okay. And would anyone else care to comment on 
the desirability or lack of desirability for a no-first-use 
policy?
    Secretary Scher.
    Mr. Scher. I think the decision was carefully considered a 
number of times, as you noted. And I think the administration 
currently feels very comfortable with where that is.
    Of course, this President and any future President should 
always take a look at the environment, understand what 
capabilities we bring to deterrence, what the security 
environment looks like, and one would hope that any decision 
would be made based on what increases our strategic stability.
    And certainly this President could make a decision one way 
or the other, as he already has up to this point. And a future 
President will also want to, I would assume, look at all those 
conditions and make a determination for him or herself.
    Mr. Lamborn. Okay. Thank you all for your answers.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you Mr. Chairman, and thank you for 
the hearing. And gentlemen, thank you for all of your service, 
your thoughtful action and work on these issues. I want to get 
a couple of numbers out of the way right away.
    Mr. Scher, you said the total cost over 20 years is $350 
billion to $450 billion. And the Congressional Budget Office 
says that for the next 10 years, it is $348 billion. These 
numbers don't quite coincide.
    Could you further explain why you made the 20-year estimate 
at a range that might even be lower than the 10-year estimate 
from the Congressional Budget Office?
    Mr. Scher. Sure, Congressman. I can't speak to the CBO's 
numbers. The $350 billion to $450 billion is what we believe, 
and, you know, we have to make estimates at some point when we 
are looking out that far, over the course of 20 years, it will 
take to recapitalize the three legs of the triad.
    So what it takes to modernize each one of the legs. That 
includes things such as the Ohio replacement program submarine, 
LRSO, the GBSD replacement of the Minuteman, and also the B-21. 
So it is those particular modernization acquisition programs.
    Mr. Garamendi. Does that also include the weapons----
    Mr. Scher. It includes----
    Mr. Garamendi [continuing]. Like bombs and----
    Mr. Scher [continuing]. It includes the deliveries. It does 
not include the warheads.
    Mr. Garamendi. Okay. I think what we need here, because 
there are obviously some significant difference in estimates, 
and for some time we have been asking for serious estimates 
beyond the 10 years. And apparently you have that available. So 
if you could make that available to us it would be helpful 
because this is an ongoing debate as to what this is going to 
cost.
    Mr. Scher. And we have had this conversation before, and I 
will go back to look at it and providing as clear----
    Mr. Garamendi. Well, sure.
    Mr. Scher [continuing]. The greatest clarity as I can from 
the people who do the budget.
    Mr. Garamendi. No, you just said that you just gave us 
great--you----
    Mr. Scher. And I can defend the $100 million difference, 
the estimates.
    Mr. Garamendi. Yes. Well, we will give it to you in 
writing. And if you would please respond in as great as detail 
as you have available that would be helpful.
    Mr. Scher. Of course.
    Mr. Garamendi. In your testimony you also talked about to 
deter massive nuclear attack the United States must maintain a 
force that is invulnerable to disarming strength. What is that 
force? Is it all of it or is it part of it?
    Mr. Scher. So it needs to be invulnerable to disarming 
strike.
    Mr. Garamendi. ``Invulnerable to a disarming strike.''
    Mr. Scher. Right. So the concept behind the statement is 
the idea that we do not want to have an arsenal that any of our 
potential adversaries would think that they can get rid of, 
that they can eliminate on their own in a first strike.
    Mr. Garamendi. Okay. So therefore in your view each of the 
three legs of the triad is vulnerable----
    Mr. Scher. I would----
    Mr. Garamendi [continuing]. To a first strike. Is that 
correct?
    Mr. Scher. The submarine force, currently I would ask the 
operational folks to weigh in, but I think some are more 
vulnerable than others. Certainly there are known locations for 
certain pieces. There are unknown for others.
    Mr. Garamendi. And Admiral Haney, are the submarines 
vulnerable to a first strike, all of them, part of them, new, 
old?
    Admiral Haney. Congressman Garamendi, the only time a 
submarine is vulnerable is when it is in port.
    [Laughter.]
    The rest of the time when it is underway it is underwater, 
stealth conditions, not vulnerable.
    Mr. Garamendi. But is it not our strategy to always have 
more than one underway?
    Admiral Haney. That is correct, sir.
    Mr. Garamendi. Therefore they are not vulnerable to a first 
strike?
    Admiral Haney. That is correct. We----
    Mr. Garamendi. How does that work, Mr. Scher, from your 
statement? Don't answer. That is just rhetoric on my part.
    I think the rest of this should be in closed session, so we 
will go there. Thank you.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from the great State 
of Alabama, home of the 2016 national football champions, Mo 
Brooks for any questions he may have.
    Mr. Brooks. I love that introduction.
    Secretary Scher, this committee has heard that the 
administration is considering extending the New START treaty 
with Russia for an additional 5 years, even though the treaty 
limits don't even take effect until 2018 and don't expire until 
2021.
    So this would be extending a treaty 5 years early and 
pushing expiration out until 2026, which is beyond the limit of 
the next President's two possible terms. If true, this action 
drastically limits the options for the next two Presidential 
terms.
    For instance, he or she would have no leverage to get 
Russia to include its vast stockpile of tactical nuclear 
weapons in an arms control regime. Reducing the number of 
Russia's thousands of tactical nuclear weapons must be a 
priority as the Senate said when it ratified the New START 
treaty.
    Russia's conduct under Mr. Putin is remarkable, violating 
the INF [Intermediate-Range Nuclear Forces] Treaty in multiple 
ways, failing to comply with prohibitions on chemical and 
biological weapons, invading and annexing parts of the Ukraine, 
threatening NATO with nuclear weapons. The list is long.
    Tell me, is the Obama administration going to seek to 
extend the New START treaty before its term is up in January?
    Mr. Scher. So Congressman, I do not know the answer of 
whether or not that the administration will make that 
determination. Certainly it is an option that is given in the 
treaty, but it is also not something that must be taken up.
    Mr. Brooks. Who in your judgment would know the answer to 
that question?
    Mr. Scher. In the end it will be the President that gets to 
make a determination of whether or not he believes it is in the 
United States interest to extend the treaty as allowed for in 
the treaty.
    Mr. Brooks. Anyone between you and the President who would 
also have knowledge of that and have the answer?
    Mr. Scher. There are ongoing discussions, as you have 
heard, but I really am not at liberty to talk about ongoing 
discussions before decisions have been made.
    Mr. Brooks. We know that the Obama administration had the 
Intelligence Community put together a National Intelligence 
Estimate [NIE] prior to the New START treaty. This is standard 
practice so we know what we are getting into. Has the National 
Intelligence Estimate been put together for a possible 
extension to the treaty?
    Mr. Scher. I don't know that one has. I will tell you, 
however, that the Intelligence Community is consulted before 
any decision of any type like this, whether or not tasked in a 
formal NIE or not.
    Mr. Brooks. Secretary Scher, let me move to a separate but 
very much related topic. The rumor mill is swirling, which is 
often the case on Capitol Hill, thanks to the small in number 
but very vocal disarmament advocates in Washington. You can 
help us put a rumor to rest.
    In December of last year Under Secretary of State Rose 
Gottemoeller testified to our subcommittee that the 
administration would not seek a prohibition on nuclear testing 
through a United Nations Security Council resolution. There has 
been talk of pursuing that avenue to skirt the United States 
Senate, which is unlikely to ratify the Comprehensive Test Ban 
Treaty any time soon.
    Under Secretary Gottemoeller said to a suggestion that they 
might pursue that option, quote, ``I have been in constant 
battle with our NGO [non-governmental organization] colleagues 
over this issue. We do not agree with this notion,'' end quote. 
And when asked for assurance that this would be pursued she 
responded, quote, ``Correct,'' end quote.
    Can you assure us again that this path is not being 
considered and will not be pursued by the administration?
    Mr. Scher. Again, I can't disclose what is going on, but I 
can assure you that there is--understanding I was coming before 
you and thinking this might come up I actually talked to the 
Under Secretary Rose Gottemoeller and she assured me that there 
is nothing that she is thinking of. She stands by the 
statement--that would take away the prerogative of the Senate 
for ratifying treaties.
    Mr. Brooks. Thank you, Mr. Scher.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from the great State 
of Washington, Mr. Larsen, for 5 minutes.
    Mr. Larsen. Home of the 2015 rowing champions, the 
University of Washington Huskies.
    [Laughter.]
    Maybe we don't play football as well as you down there in 
Alabama, but it is not the only sport, believe it or not.
    [Laughter.]
    Secretary Scher, you might know that some of the 
conversation that we have in this committee, especially on this 
side of the aisle, goes to the affordability of the 
modernization.
    And in your testimony you, in your written testimony, said 
that the trillion-dollar number is a mischaracterization. And I 
guess my question to you, though, is where do you think it 
comes from, first?
    Second, if after 20 years you are at $450 billion and then 
we really start to spend money over those next 10 years, I can 
see a world, in my mind, where there is a trillion dollars over 
the next 30 years. I don't know that I will be here. I know you 
won't be here, sitting here.
    [Laughter.]
    Maybe somewhere else, but not sitting here perhaps.
    So in your view where does this come from? Because the main 
issue, and General Rand in his verbal testimony at the end 
basically invited us to ask him. And you are great. I like you, 
but basically invited us to ask you how great nuclear 
modernization is.
    I think it is great. It is greatly expensive as well. And 
the debate is less about whether or not it is needed.
    It is more about you are leaving us a gigantic obligation, 
what everyone loves, but if I go to the Readiness Subcommittee 
they have got everything they love over there. Or they have 
things they love. And we go to the other subcommittees they 
have got things they love, too.
    And pretty soon we don't have a $580 billion defense 
budget. It will be much larger because everybody gets what they 
love and they don't want us to make any choices.
    So what are you going to--the number comes from and what 
are you all doing to convince, well, maybe not all of us, but 
certainly me that you are prioritizing at all? Because I don't 
think that you are.
    Mr. Scher. So thank you, Congressman. I can't tell you 
where the number comes from. Obviously it is a big number and 
it makes a splash, and I think, you know, depending on how you 
want to calculate costs for how long, you can get to any number 
of numbers that you wish.
    What I know of is that the modernization piece is what I 
said. And again, it is a pretty big range given that we have so 
much uncertainty out into the out-years, which is why it is 
hard for us to always pin this down.
    There also are additional costs no doubt. One of the costs 
is the weapons themselves, the warheads. One of the costs is 
sustaining these pieces, the operations and maintenance piece. 
So I am sure you can piece together many different expenses on 
this.
    And, you know, all of these are known for today but not 
known for tomorrow. For example, fiscal year 2017 sustainment 
of our force is approximately $12 billion a year. That is for 
the entire force.
    One would imagine, and what acquisition people tell me is 
when you have a new system it actually costs you less to 
maintain, although overall costs will go up as well.
    So I don't know what that number is going to look like out 
in the future, but that is sort of another piece to the cost is 
those sustainment costs.
    In terms of affordability, I have said it before and I will 
be forced to repeat it, it is about prioritization. We in the 
Department of Defense feel that this is such a critical mission 
that we must prioritize it at the top and that in fact we will 
look to take risk elsewhere because it is so important that 
fundamentally we have nuclear deterrence covered appropriately. 
And we believe, and the administration has determined, that the 
triad is the best way of doing that.
    It does mean that there are costs in other places, and we 
always present what we have as a budget that is balanced. It 
gives me the opportunity to say that sequestration would, of 
course, throw almost all of this up into the air and to great 
risk across the board.
    So we hope that we can get out of the situation where we 
are worried about a $100 billion cut based on sequestration 
that we had not programmed for and would have to go back and 
take a look at the full range. But even then, your priorities 
are affordable if they are your top priorities.
    Mr. Larsen. Well, I guess, I have got, you know, 30-some 
seconds left. And maybe the problem is with the committee 
because this subcommittee thinks we are first among equals in 
the money we should get and the other six believe that as well.
    But, you know, we don't have that debate. Everyone avoids 
that debate on this committee, on the whole committee, that 
everybody does get what they want.
    But if we are the first among equals and what I heard you 
say at the top of the Department, there is a commitment to the 
nuclear modernization. You didn't say first and foremost, but 
you almost said it. Then maybe we need to get there, too, but I 
don't know that we will.
    You know, I have been on this committee 16 years and I 
always said before the most dangerous thing to give the 
Department is everything it wants because there are no 
priorities. And the second most is not giving it enough because 
then you are not doing all the right things. And we haven't 
found that balance here.
    So happy vacation, committee.
    [Laughter.]
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Utah, Chairman 
Bishop, for any questions he may have.
    Mr. Bishop. I don't get any State accolades here?
    [Laughter.]
    Mr. Rogers. Oh, the great State of Utah, home of the Utes. 
How is that?
    Mr. Bishop. That is good enough. That is good enough.
    General Rand----
    Mr. Larsen. PAC-12 baseball champions.
    Mr. Rogers. What is a Ute, by the way?
    Mr. Larsen. PAC-12 baseball champions, Rob.
    Mr. Rogers. National baseball champions.
    Mr. Larsen. PAC-12----
    Mr. Bishop. Thank you. They are still the Utes, yes.
    General Rand and Admiral Haney, I appreciate you being 
here. Let me--help me make sure I have got this right. The Air 
Force did conduct an analysis of alternatives on the ground-
based strategic deterrent program.
    And as I understand, you looked at a simple life extension 
of the current Minuteman III and the results were--and I think 
I got out of it you wouldn't actually save any money. And 
secondly that the military effectiveness requirements would not 
be there, assuming the adversary continues on their present 
defensive capability improvements.
    So let me ask you, General and then Admiral, why won't this 
actually save money? Why won't it meet military requirements?
    General Rand. Sir, when we looked at the life extension 
over a 50-year period, which is fair to look at for a Minuteman 
III, the study revealed it would be in a--$160 billion.
    For the GBSD as we are working our requirements and what we 
feel our best gouge in our analysis is we can do that same 
period of time at $159 billion and then the efficiencies we 
will gain in terms of manpower saving, security forces, the 
command and control, the reduction in some of the facilities 
that we need, not having to go out and do the maintenance on 
some of the launch control centers that we have to do, there 
will be in that same period of time additional savings.
    Again, you know, writing checks that you can't cash yet, 
but we are thinking up to $20 billion over that same period of 
time.
    Mr. Bishop. All right. And the second----
    General Rand. And the GBSD----
    Mr. Bishop [continuing]. Part of that was if you just 
simply extend the Minuteman III. That does not meet our defense 
capabilities, right?
    General Rand. No, sir. And what that doesn't do, the 
Minuteman III, and this is my key point is it doesn't address 
the survivability piece. If that weapon is used and if we are 
not willing to use it then why have it? If that weapon is used 
to be a deterrent for this Nation, then it needs to have a high 
probability that it will get to the target that it is intended 
for.
    Mr. Bishop. All right. Well, thank you.
    And Admiral, let me ask a slightly different question then 
because I think you got the answer right there. If the 
Minuteman III then is advanced in aging and we stick to the 
current schedule for the GBSD program, what would be the 
consequences if that GBSD program then is delayed?
    Admiral Haney. Congressman, if that program is delayed it 
really puts one leg of the triad at significant risk as we go 
forward from, as was stated, from a reliability standpoint as 
well as we continue to test, which we have to.
    And very important as the system matures to keep your 
testing program under way, that the number of missile bodies 
that we will have will also go below my requirements. And then 
finally we have age-out problem associated with the rocket 
engines themselves as we go forward.
    So when you add all that together it puts the strategic 
stability and our deterrence capability at significant risk if 
we were to lose a leg of the triad like that.
    Mr. Bishop. Okay.
    And then let me go to Secretary Scher if I could. We still 
have not seen a request for proposals [RFP] for the first phase 
of this program, even though I think this committee was assured 
that that was going to happen in April.
    Why do we continue to see a delay in Milestone A decisions 
to proceed with this program, if indeed that is such an 
important element to do that?
    Mr. Scher. The Department of Defense and the acquisition 
side that is looking at this continues to go through this 
process. They are looking to get out an RFP after the DAB 
[Defense Acquisition Board] in Milestone A, which I am told is 
in early August.
    And the acquisition professionals I spoke to said that they 
believe this is along lines with normal practice, but are 
absolutely looking to move this forward as soon as possible. 
And we have money in the budget to go forward with this when we 
get through Milestone A.
    Mr. Bishop. So they recognize that this was scheduled to be 
done in April and what is this now, almost August. And it might 
be done in August.
    Mr. Scher. Yes, Congressman.
    [Laughter.]
    Mr. Bishop. Well, it seems to me that there is some holdup 
in a desk at maybe the Under Secretary for AT&L [Acquisition, 
Technology and Logistics]. Is that basically what is going on?
    Mr. Scher. Honestly, sir, there is a reason I am not an 
acquisition professional. And I don't know the answer to that. 
But they have told me that they are moving forward and expect 
it to be done in August.
    Mr. Bishop. Well, you know, this committee is considering 
Senate proposals to dismember the AT&L organization, and it 
doesn't really help us to support the continued existence when 
necessary programs seem to be delayed and not necessarily 
appropriately delayed or not having a good reason for it.
    And I am over by 7 seconds. I apologize for that. I yield 
back to the chairman from the great State of Alabama that does 
have a mediocre football team that lost to Utah in the last 
bowl game we were together. But other than that----
    [Laughter.]
    Mr. Rogers. Roll Tide.
    [Laughter.]
    The Chair now recognizes the gentleman from the great State 
of Louisiana, home of the LSU [Louisiana State University] 
Tigers, Dr. Fleming for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman, and again, thank you 
General Rand and Admiral Haney for being here and the others, 
General Klotz.
    Let us talk about a statement made by former Chief of Staff 
General Welsh. He said that if he could comment on the weapon 
station facility recapitalization programs in terms of timeline 
of what can we expect for the future, General Welsh indicated 
that Barksdale Air Force Base would begin in fiscal year 2018 
but he later explained to me that the program would slip 1 year 
to fiscal year 2019.
    So how confident are you that the weapon storage facility 
is on track in terms of technical solutions and the budget? And 
what do you need from this committee to stay on track?
    General Rand. Sir, I will take that one. I think that that 
is a very fair question. The complicating factor with the 
Barksdale is that the WSF, that is what we will be calling 
them, the weapons storage facilities, for bombers is more 
complicated than for it is for our ICBMs.
    And we didn't want to come out the chute and have Barksdale 
be the first one we do----
    Dr. Fleming. Yes.
    General Rand [continuing]. Because it is going to be more 
of a technological challenge for us. And so we wanted to use 
the one at Malmstrom first and make sure--not that we would 
fail there. We are not going to fail, but that we didn't get in 
over our head before we went to Barksdale. And that was the 
reason to go to 2019.
    We are on track to meet that and there are dollars for 
that. It is in the FYDP [Future Years Defense Plan]. I am very 
confident that is a top priority, why I mentioned in my 
statement one of our priorities is the WSF----
    Dr. Fleming. Right.
    General Rand [continuing]. Recapitalization and 
modernization.
    Dr. Fleming. Yes.
    General Rand. And I will keep you appraised of--you 
personally----
    Dr. Fleming. Yes.
    General Rand [continuing]. I will keep you appraised of any 
changes to any timelines.
    Dr. Fleming. Yes. I appreciate that and all that is all 
very logical. I just wanted to make sure we are on track, 
remain on track, and there are no other complicating factors. 
Okay.
    Again, for Admiral Haney and General Rand, there has been 
sufficient discussion as to whether or not the Nation should 
build a new nuclear cruise missile. The opponents of the 
missile come onto Capitol Hill, other notable officials such as 
William Perry argue a cruise missile is destabilizing and 
unnecessary.
    In Dr. Perry's case he argues that the B-2 bomber anti-
gravity nuclear bomb, the B61, will be, quote, ``around for 
decades,'' end quote, to come and ultimately we will see a new 
stealth bomber, the B-21, of course, making the standoff 
cruiser unnecessary.
    So I would like your perspectives whether a small number of 
B-2s, which was first made public in 1989 and a new bomber, an 
aircraft that hasn't even been built yet, the B-21, will be 
able to guarantee access to a complex threat environment? And 
hopefully should the B-21 be built on time and on budget, will 
that new aircraft entirely eliminate the need for a standoff 
capability?
    General Rand. Sir, I will take the first crack at it and 
then I will defer to my boss. It is my humble opinion and I 
think to address that question you have to answer why do we 
need a long-range standoff weapon.
    Well, whether it is the current ALCM [air-launched cruise 
missile] or the LRSO and so there are several good reasons why 
you want to have standoff capability. One is survivability 
again.
    Dr. Fleming. Yes.
    General Rand. You don't want to get into the eye of the 
tiger if you can avoid it. It gives the President flexibility. 
It gives crews flexibility. It causes the enemy targeting 
challenges.
    It allows you to not go as far with your bombers, not need 
the same amount of tankers. There are a lot of efficiencies. So 
when you address why do you need standoff, I think it is fairly 
indisputable.
    So then you go why do we need an LRSO then? As you said so 
well, the B-21 will start being delivered in the mid-2020s, 
will continue delivering those into the 2030s and 2040s.
    The B-52, which is solely reliant on the ALCM right now, 
the air-launched cruise missile, is going to be with us for a 
long time. And that is the weapon of choice for that. And that 
would significantly hinder my boss here in his targeting 
requirements that he has as a STRATCOM [U.S. Strategic Command] 
commander.
    Dr. Fleming. Sure.
    General Rand. And the ALCM is aged out. It is a 10-year 
missile that is in its 30th year. It is having difficulties 
maintaining its reliability. But more importantly, the missile 
will not be survivable in the ever-increasing A2/AD 
environment.
    Dr. Fleming. Yes.
    General Rand. So if we want that weapon to have a high 
probability of hitting the target it is intended for, we need a 
new weapon system, a new LRSO. It is not a new concept.
    Dr. Fleming. Right.
    General Rand. And it is not a new warhead.
    Dr. Fleming. Yes.
    General Rand. But to get where it needs to go we need to 
invest in the LRSO.
    Boss, I will defer to you.
    Admiral Haney. I would say I echo all of those statements. 
First and foremost we have an air-launched cruise missile now 
and we would be ill-advised to allow that to just go away and 
not have it replaced.
    When you look at my capability today and as mentioned, our 
B-52s will be around well into the 2040s. And as a result, 
they, in order to have a sufficient air leg, not having the B-
52 as part of that would be really, really bad from a 
deterrence and strategic stability standpoint.
    We have one now and we need to continue to have one to 
avoid making a less complex problem for any adversary that may 
think they can escalate their way out of a failed conflict. We 
want to keep that contained, that restrained is a better 
option.
    I would also say it is very important to our extended 
deterrence commitments as we go forward in terms of having that 
kind of capability. So that is what I would add to it. Really 
an impact to strategic stability if we lose that portion of our 
air leg going forward.
    Dr. Fleming. Right. Thank you, gentlemen.
    Mr. Coffman [presiding]. Mr. Bridenstine, of Oklahoma.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Secretary Scher, I wanted to have you talk for a second 
about the triad. I believe that each leg of the triad 
complements the other legs of the triad. I have heard many 
people suggest that it is redundant, in fact, maybe even some 
people on this committee have suggested that.
    Would you comment on whether or not you believe it is 
complementary or redundant?
    Mr. Scher. So certainly this administration has determined 
that these are complementary. Certainly there are a lot of 
things. There are overlapping capabilities.
    Of course, this is what has kept strategic stability for 
decades, and I think we all believe that having these 
overlapping capabilities to, as Admiral Haney said, change the 
calculus and complicate the calculuses of any adversaries, is 
in fact, not just redundant but important to the strategic 
stability.
    Each leg, as you said, has its own particular piece. The 
submarines, as noted, are the most survivable of them. The air 
leg is one that when generated is the easiest for messaging 
because it can be seen. It also is the most important for our 
allies that the extended deterrence that they see comes from 
those kinds of options as well as with the lower yields of 
those weapons.
    And as well it is a recallable one until you have actually 
launched the weapon. It takes hours for an aircraft to be able 
to get to a point where before it would launch and they can be 
called back at any time.
    Obviously the ICBM force is the most responsive. It has 
highly secure command and control. And it strengthens 
deterrence by ensuring that the disarming first strike that I 
mentioned about isn't possible.
    And even if it could, that, you know, they would have to--
there is no such thing as a small operation. They would have to 
go in massively to take that out.
    So it is all of these interlocking pieces that we believe 
and that we have evidence of decades has provided for strategic 
stability even in the height of the Cold War, that we believe 
needs to be maintained. And that was the determination of the 
administration through the Nuclear Posture Review in 2010 and 
the implementation review in 2013.
    Mr. Bridenstine. Thank you for that.
    Admiral Haney, from a military requirements perspective, 
some have criticized President Obama's modernization plan as 
an, quote, ``all of the above strategy, seeking to replicate 
the Cold War arsenal or even start a new arms race.''
    This argument, of course, ignores the 85 percent massive 
reduction in our nuclear forces since the Cold War and the 
elimination of entire weapon classes, including nuclear 
artillery shells, sea-launched cruise missiles, and other types 
of weapons.
    Admiral Haney, do you believe the administration's 
modernization plan reflects a desire to replicate our Cold War 
arsenal or start an arms race? Or do you believe that it simply 
modernizes systems necessary to execute specific military 
requirements and missions of the highest importance?
    Admiral Haney. Congressman, I would say no, the plan is not 
to build up for some cold war. Quite frankly it is the latter 
in the case of having an effective capability in order to 
maintain strategic stability, deterrence, assurance, and 
escalation control.
    And I would say when you look at the categories of things, 
warheads significantly reduced, 85 percent since about 1967 to 
where we are today, as you have mentioned, but also platforms.
    When you look at the Ohio replacement program it is not the 
same number of submarines we have today, less tubes than what 
have been associated with the design.
    So in many categories we are only working to modernize and 
retain what we need in order to maintain.
    Mr. Bridenstine. So the idea that we are trying to create a 
cold war arsenal or start an arms race you would say that is 
false?
    Admiral Haney. Quite the contrary. False.
    Mr. Bridenstine. Okay. That is good.
    Finally, Secretary Scher, from a cost perspective I want to 
talk for a second about the cost of modernization and maybe put 
it into some perspective.
    When you think about nuclear recapitalization and 
conventional recapitalization from a, you know, when you think 
about the entire defense budget, can you give us some 
comparison? What is the--between the two, conventional and 
nuclear?
    Mr. Scher. Certainly. So nuclear modernization itself as we 
are looking is going to be less than 4 percent of the overall 
DOD budget. And even at its peak it is about 11 percent of the 
total fiscal year 2017 acquisition budget.
    So using fiscal year 2017 as a baseline for what the 
acquisition budget looks like the peak number would be at about 
11 percent of the total. Again, we can't predict what our 
budget number, so, you know, that is our best gauge of, if you 
will.
    But while, again, it is a lot of money but we believe it is 
important and it is sustainable.
    Mr. Bridenstine. Okay. Great. Thank you.
    And General Rand, final question, I heard you earlier. You 
mentioned that you made a decision on the best gouge at the 
time. Would you share for this committee what gouge is?
    General Rand. Oh, I am sorry. It is just our best----
    Mr. Bridenstine. And I say that as a Navy pilot who is now 
in the Air National Guard.
    General Rand. Our best estimate.
    Mr. Bridenstine. Your best estimate. Got it. Okay.
    I yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, gentlemen, and thank you so much 
for your dedication and service to our country.
    I am not sure who is the best person to answer this 
question, but obviously very concerned about Russia and their 
focus on nuclear weapons, both strategically and in tactical 
nuclear weapons.
    And I wonder if one of you could discuss right now their 
focus in terms of tactical nuclear weapons and their doctrine 
in terms of deployment of those weapons?
    Mr. Scher. I think I can. Let me talk from the policy 
perspective that we are looking at. I think one of the concerns 
we have is the state--certainly just looking at the fact of the 
modernization and that is something we can go into in 
classified setting.
    It is concerning to see that there is clearly--the Russians 
are clearly continuing to look at nuclear weapons as a clear 
and important part of their arsenal. And they are building it 
up both in size and type--not beyond the limits of the new 
START agreement, to be clear, but in other areas we certainly 
see. And they have violated the INF treaty, for example.
    Also of concern is the way they look to--and I think 
Secretary Carter said saber-rattling with nuclear weapons. How 
they are using them, how they are training with them 
extensively and in an increased manner.
    And finally there is the idea that is floating around in 
the military circles within Russia of the use to escalate to 
win a conflict, or escalate to de-escalate is often how it is 
referred to.
    And the idea that there could be a limited nuclear use that 
could hopefully stop a failed conventional crisis and that they 
could win a conventional crisis that they might think they are 
losing or could lose by the use of limited nuclear weapons, as 
Admiral Haney spoke about in his opening statement.
    That is particularly concerning and dangerous. No one, 
Russians or anyone else, should think that they can use nuclear 
weapons to escalate their way out of a failed conventional 
conflict. The use of nuclear weapons would change dramatically 
and fundamentally the nature of any conflict.
    But those kind of issues are ones that we are most 
concerned about as we look at the developing environment and 
security environment, especially in regard to Russia.
    Mr. Coffman. And those are tactical weapons integrated with 
conventional forces?
    Mr. Scher. That is a separate piece in terms of the 
actual--what they are doing. They could use any different kinds 
of weapons, but certainly that is also a concern, their 
integration of tactical with conventional units.
    Mr. Coffman. And it is a first strike doctrine, is it not?
    Mr. Scher. They are not calling it such, but there is 
certainly the implication that--of escalate to, you know, work 
their way out of a crisis. So we are certainly planning and 
thinking about that they would or certainly could do that in a 
worst-case scenario.
    Mr. Coffman. Oh. What else?
    Secretary Scher, can you characterize the risk to national 
security if we fail to modernize our nuclear forces?
    Mr. Scher. Certainly, and Admiral Haney I think from an 
operational perspective can add if he wishes, but if we do not 
modernize these forces we will not have these forces available 
for use or operations. This is not a question of modernizing or 
keeping old forces. This is a question of watching them slowly 
age out from our forces.
    So we would prefer to make decisions if we are to draw down 
our forces, if we feel the security environment is right and 
can do so with a willing partner, we would prefer to do any 
such reductions as part of policy, not as part of aging out of 
old equipment. So that to us is the biggest issue involved 
here.
    Mr. Coffman. Admiral Haney.
    Admiral Haney. I would just add that the real key to 
deterrence is the perception of your adversary. An adversary 
has to understand that you have not just a safe, secure, and 
effective, but a ready and reliable and credible capability.
    And anything that detracts from that perception will cause 
that adversary to think that they may be able to do something. 
And we cannot afford that in terms of nuclear weapons given the 
existential threat that they would impose upon our way of life 
and our country.
    Mr. Coffman. Okay.
    Admiral Haney. I would also say that we don't want to 
default and lose a leg or a partial leg of a triad because we 
haven't modernized. And we are to the point now, as I mentioned 
earlier, that we can ill afford to wait longer. We are to the 
point now where we have delayed.
    The good news was our predecessors designed it built to 
last and we were able to some life extension programs, et 
cetera, but now we are in a point where reliability, 
survivability, as you have heard today, will be at risk. And 
hence, deterrence and our assurance to our allies will be of 
question.
    Mr. Coffman. General Rand, in looking at the next 
generation bomber is the Air Force considering any existing 
platforms, any existing airframes to work off of as they did 
with the refueler that saved a lot of money?
    Mr. Chairman, can I take that for the record?
    Mr. Rogers. They can go ahead and answer. Time has already 
expired.
    Mr. Coffman. Okay.
    Mr. Rogers. Go ahead and answer.
    General Rand. Sir, we have been very fortunate and I can 
talk in more detail in the classified part. We have been able 
with the B-21--we are going to be able to use a lot of hard 
lessons learned from current existing platforms.
    This is the family of systems and it was built that way to 
augment and be able to work with some of our systems. And I can 
talk about what those are in classified as well.
    I would also say we have learned a lot from the B-2. And 
the B-21 is a Northrop Grumman product. That is not necessarily 
why we bought it, but there is a lot of resident expertise that 
will reside there with the company and with our partners. So I 
am pretty confident that we are going to be able to get this 
up, platform on time, on schedule, and it is going to be a 
humdinger.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Ohio, home of 
the Ohio State Buckeyes 2015 national football champions.
    [Laughter.]
    Chairman Turner.
    Mr. Turner. Thank you, Mr. Chairman. Thank you for that 
Buckeye shout-out.
    Gentlemen, I appreciate all the discussion that is 
happening today, some of it being incredibly technical.
    I want to go to just a policy issue or discussion on the 
issue of nonproliferation versus disarmament. And there is I 
think a great deal of misconception that happens in the 
discussions of nonproliferation and disarmament, 
nonproliferation being keeping weapons out of the hands of 
others, disarmament is when you get rid of your own.
    And I want to go through a series of policy positions that 
I think you in your evidence of your testimony today, you agree 
with. And then I want to contrast that with some issues that we 
are seeing in nonproliferation disarmament, and then I am going 
to engage the chairman in a discussion here on some further 
action items here.
    So with each of you, I mean, from our discussion today it 
is my understanding that each of you believe that it is 
critical to the United States to field the LRSO and GBSD. 
Correct? If every one of you could you audibly answer and we 
will go down and we will start here, General?
    General Rand. Yes.
    Admiral Haney. Absolutely.
    Mr. Scher. Yes.
    General Klotz. Yes.
    Mr. Turner. In the United States 2010 Nuclear Posture 
Review it said that the United States would not announce a no-
first-use or a sole purpose declaratory policy. You still agree 
with that policy perspective, do you not?
    General Rand. Sir, my personal opinion is yes.
    Admiral Haney. I agree.
    Mr. Scher. That remains our policy, yes.
    General Klotz. I agree with Mr. Scher. That remains our 
policy.
    Mr. Turner. Excellent. And you believe that Secretary 
Carter, Secretary Moniz, Chairman Dunford, that they all agree 
also with the issue of the LRSO, the GBSD, the no-first-use or 
sole purpose declaration policies that we just discussed. You 
agree that there is consistency in their positions also?
    General Rand. Yes, sir. In my discussion with Admiral 
Haney, who is closer to those individuals than I am, that is 
what I have been led to believe.
    Admiral Haney. Well, I would not want to speak for the 
Chairman. I work for the Secretary of Defense and the 
President, so I will leave it at that. But while GBSD and LRSO 
I have had many discussions with the Chairman, the other I have 
not.
    Mr. Turner. You have no reason to believe that they have a 
differing opinion?
    Admiral Haney. I do not.
    Mr. Turner. Thank you.
    Mr. Scher. And I will refer to the current policy and the 
current budget up here, which supports all the things you 
noted.
    Mr. Turner. Okay.
    General Klotz. Yes. I try not to speak for Secretary Moniz 
because I found he is extraordinarily articulate and a lot 
smarter than I am. I know certainly on the things which the 
Department of Energy and the NNSA have responsibility for, 
which is developing the warheads for LRSO and the warhead that 
would go on the GBSD, we are fully supportive of those 
programs.
    Mr. Turner. Excellent. Now, I am going to ask you some 
questions that relate to a public information study that are 
widely held beliefs by the public and ask your position and 
your opinion as to whether or not you agree with them.
    The public views nuclear weapons as the ultimate protective 
weapon. Nuclear weapons make us safe. The public views the 
world as a dangerous place. Are those opinions that the public 
has that you would also agree with?
    General.
    General Rand. Sir, I believe the world is a dangerous 
place, and I believe that nuclear weapons and its deterrent 
value can't be overstated, and that it does provide us safety 
and security.
    Mr. Turner. Thank you.
    Admiral Haney. I believe that one has to always look at 
things in a more complex piece. Deterrence is a complex issue, 
lots of parts and pieces, and I don't believe in just bumper 
statements.
    Mr. Turner. But do you believe it is an essential portion, 
would you not?
    Admiral Haney. But it is definitely. As I have stated 
before in opening statement, et cetera, that it is essential to 
our national security.
    Mr. Turner. Excellent.
    Mr. Scher. Nuclear weapons are a critical piece of our 
national security. And it is a dangerous world.
    General Klotz. Well, as I said, Congressman, in my opening 
remarks, even though the Cold War, the end of it was decades 
behind us, we still live in a very complex, dangerous, 
international system and that nuclear deterrence is a 
foundational capability of maintaining our security, but not 
only our security alone but the security of our allies and 
friends across the globe.
    Mr. Turner. Well, this report goes on to say that the U.S. 
public believes that the nuclear arsenal is an effective 
deterrent that dissuades enemies from attacking us. The thing 
that I am reading from is from the U.S. in the World talking 
about issues with Americans, ``Talking about Nuclear Weapons 
with the Persuadable Middle.''
    It is a study that was done of the American public for the 
purposes of persuading them not for nonproliferation but of 
disarmament. And what is concerning about this report is in 
addition to identifying--some of these studies were done in 
Indianapolis. They engaged citizens for it and tested messages.
    And they came to conclusions. They gave this walk-through 
of what you can and cannot say with the goal being disarmament 
and our elimination of our nuclear weapons. They actually come 
right out and say that one of the things you are not to do in 
talking to the persuadable middle is to tell them that your 
goal is getting to zero as your primary goal.
    It goes on to say that nuclear weapons should be presented 
as a security threat and as a risk to the United States, not as 
a security issue of the United States.
    Mr. Chairman, if I might just for a moment. This study and 
this group is in part funded by Ploughshares. And Ploughshares, 
I have been given documents, apparently has significant 
investments that are in even the Cayman Islands. And there is a 
grave concern as to how this funds a message alternative that 
is somewhat disingenuous to the policy perspectives that you 
have just articulated.
    And I want to ask the chairman to join with me in taking 
the next step of looking at this discussion of disarmament 
versus nonproliferation and how the message is being funded to 
try to dissuade the American public of the things that you just 
testified to we know to be the case with disingenuous 
statements and misinformation.
    So I will be sharing this with the chairman. I hope to get 
back to you gentlemen and hope to have your assistance also in 
ways that we can counter the alternative message that I think 
makes your job harder----
    Mr. Garamendi. Mr. Chairman.
    Mr. Turner [continuing]. When you come back to us for help.
    Mr. Rogers. Yes.
    Mr. Garamendi. Excuse me, but you have very successfully 
put together a hearing here that is becoming extraordinarily 
one-sided, in part because my Democratic colleagues are not 
here. However----
    Mr. Turner. Attendance is important, but Mr. Chairman, I 
didn't yield the time, the additional--that you were giving.
    Mr. Garamendi. I am sorry, but you----
    Mr. Rogers. The gentleman's time has expired.
    Go ahead.
    Mr. Garamendi. If I might, Mr. Chairman----
    Mr. Rogers. The gentleman from California, go ahead.
    Mr. Garamendi. So to complete this, I want to congratulate 
you on this, the success that you are having in presenting one 
side of this argument. Others of us, myself and perhaps others, 
might disagree with many of the things that have been said 
here, perhaps because of our absence, which is our fault, 
certainly not yours.
    The other side of this story has not been told. First--
nobody is talking about disarmament from this side of the 
aisle. Nobody. Right?
    Mr. Rogers. But here----
    Mr. Garamendi. I want to make this clear. I have listened 
to at least a half a dozen on the other side here, and this has 
gone on and on. Nobody on this side is talking about 
disarmament. We are talking about let us be wise, let us be 
smart, and let us recognize that there are limits.
    Mr. Rogers. Well, the chair is going to have to intervene 
here.
    Mr. Garamendi. And I would appreciate the opportunity to 
ask the questions.
    Mr. Rogers. The Chair has recognized the individuals who 
are present for their questions. They can ask what questions 
they want to.
    The Chair now recognizes the gentleman from Montana for 5 
minutes for any questions he may have. Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman. And as a former SEAL 
[Sea, Air, Land teams] commander I have tried to stay away from 
nuclear weapons. Some of that earlier in my career. You may 
recall we had the man-portable one, and I was unfortunately 
selected to that program. I am glad we see it gone away.
    Having said that, the triad, explain to me, General Rand, 
on the order and magnitude of your rack and stack of operating 
costs and sustainment. What is the rack and stack of our triad?
    General Rand. I will talk to the two legs that I have and I 
will defer to Admiral Haney on the submarine. Right now the 
ICBM, the operations and sustainment yearly is $1.2 billion.
    For our bomber fleet that end is $2.5 billion for 
operations and sustainment. That is pretty cost effective. That 
makes up approximately 5.4 percent of the Air Force's TOA 
[total obligation authority] budget.
    Mr. Zinke. And Admiral.
    General Rand. And if I may? The one thing with the bombers 
I would go while it is more expensive than ICBM, sir, remember 
it is dual capable. We are also getting conventional use out of 
all our bombers that are doing multiple things at any given 
time. So that number is not just supporting the nuclear 
enterprise.
    Mr. Zinke. And Admiral, want to weigh in?
    Admiral Haney. Congressman, I don't have numbers with me 
today, so I will have to take it for the record.
    [The information referred to can be found in the Appendix 
on page 105.]
    Admiral Haney. I would just say it is more complicated than 
looking at a rack and stack of operating costs and what have 
you. It is the attributes associated with each leg of the triad 
that have to be balanced with the associated costs.
    So to not have your most survivable leg of the triad would 
have significant consequences to the value of the triad.
    Mr. Zinke. So would it be safe to say that the land-based 
is a cost-effective part of the triad given what it provides?
    Admiral Haney. Well, I would say every leg of the triad is 
effective. When you say land-based you are saying, I am 
assuming, specifically intercontinental ballistic missiles.
    Mr. Zinke. Yes, sir.
    Admiral Haney. But I would say the intercontinental 
ballistic missiles have certain attributes that are very 
effective in deterrent, others that are not so much. The 
business of being able to take a bomber and signal with it, as 
well as the flexibility with it in terms of things is very 
important to the deterrence equation.
    The business of, as we discussed earlier here, not knowing 
where the submarine is gives it a unique survivability 
attribute such that, again, no adversary will want to escalate 
their way out of a failed conflict.
    Mr. Zinke. Provided the seas remain relatively transparent, 
right?
    Admiral Haney. Well, I will just say throughout my career, 
people have been trying to tell me that the seas are going to 
be transparent. I have done a lot of ASW [anti-submarine 
warfare] in my years of service, and ASW is hard, anti-
submarine warfare. It is not a trivial business, and I don't 
see in the foreseeable future the oceans becoming translucent.
    Mr. Zinke. Well, let me shift to part of the supporting the 
land-based is the helicopters. Throughout this process we 
looked at it, we went back and forth, replace the UH-1 
Novembers with another aircraft. Initially I looked at the 
Black Hawks. There was an existing contract. Let us just put 
them on there. It made sense from my perspective.
    I understand that fleet-wide we need to take a little more 
time to look at it. Given that what is in the NDAA now is to 
have it at least under contract by 2018 to allow bidding, have 
we taken any steps forward since then to look at the 
requirements of the--the fleet?
    General Rand. One thing I can tell you absolutely is 
Admiral Haney and I are absolutely in lockstep on is the need 
for a UH-1N replacement.
    Mr. Rogers. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from Missouri, 
Chairman Hartzler, for any questions she may have.
    Mrs. Hartzler. First of all I want to thank you, Mr. 
Chairman, for allowing me to be here today since----
    Mr. Rogers. Sure.
    Mrs. Hartzler [continuing]. This isn't one of my regular 
subcommittees. But given the topic of nuclear globalization and 
the guests that are here today, certainly appreciate the 
opportunity to visit about the nuclear deterrent, and certainly 
glad to see once again you, Admiral Haney and General Rand and 
as well as you, General Klotz.
    So the first question I have is for Secretary Scher, 
Admiral Haney and General Rand. And it kind of builds on some 
of the questioning that was done by my colleague Mr. Fleming 
talking about the LRSO a little bit.
    But we are hearing arguments that the LRSO should be 
cancelled, and the reason is because air-launched cruise 
missiles are, they say, destabilizing because they could be 
either nuclear-armed or conventionally armed. And that an 
adversary can mistake one for the other in a conflict.
    So are our current AGM-86 cruise missiles both conventional 
and nuclear? And do you consider them destabilizing? And along 
with that, do you believe our potential adversaries consider 
dual-capable cruise missiles destabilizing?
    So Secretary.
    Mr. Scher. So I think we have evidence to suggest that we 
have strategic stability with the current systems, which can be 
both nuclear or conventionally armed. So I do think that point 
of your argument raises questions as to why a system that would 
be recapitalizing and modernizing an existing system and not 
adding new capabilities would suddenly be destabilizing.
    The other piece, of course, is that destabilizing in the 
nuclear context means does the adversary believe that you can 
have a disarming first strike? And that is not something that 
is possible with individual LRSO or the ALCM. So I think we 
believe that this is, in fact, that strategic stability would 
be decreased if we did not have an LRSO to replace the ALCM.
    Mrs. Hartzler. Anyone else? Admiral.
    Admiral Haney. I would also add that our adversaries are 
also, Russia, for example, has had air-launched cruise missiles 
of both variety. So we have had a history of the air-launched 
cruise missile, the ALCM, and it hasn't been destabilizing.
    So the argument that seems not very thoughtful in that we 
have had this capability. I think the thing that is 
destabilizing if we let it decay and not have it, that will be 
destabilizing.
    Mrs. Hartzler. That is good. Thank you.
    General Rand. Ma'am, I agree with what has been said 
already. We have been using the Air Force and the Navy cruise 
missiles now for over 30 years. And there hasn't been any 
indication that it is destabilizing.
    I would also submit that if we went that, at least for the 
air-breather, then any one of our airplanes are dual capable, 
whether it is an F-16, the Strike Eagle, the B-52, the B-2, 
they all are carrying conventional weapons as well as nuclear 
weapons.
    So anytime they take off you would have to ask them is that 
destabilizing?
    Mrs. Hartzler. You anticipate my second point, my second 
question, exactly. So we have the same issue with the aircraft 
because they are dual capable. Very good.
    General Klotz, I would like to turn to you. What are the 
impacts to the NNSA if the LRSO and its warhead, the W80-4 is 
significantly delayed or cancelled.
    In particular, and, you know, this is--I have met you 
before there at the Kansas City. So what are the impacts to the 
Kansas City National Security Campus as well as the Pantex 
Plant which do most of the production work and the Livermore 
National Lab and Sandia National Labs, which have primary 
design responsibility?
    General Klotz. Thank you very much for that question. First 
of all, let me emphasize there has been no decision made to 
delay the W80-4 life extension program.
    Mrs. Hartzler. Right.
    General Klotz. And we are proceeding on the program of 
record as laid out in the President's budget, in our Stockpile 
Stewardship Memorandum, and in the National Defense 
Authorization Act, which requires the Secretary of Energy to 
deliver a first production unit of a life-extended W80 warhead 
by 2025.
    This committee, I believe staff on this committee had asked 
each of those organizations that you mentioned what the impact 
would be, so don't take my word for it.
    Let me just, if I could, in their responses, for instance, 
Sandia National Laboratory said, and this is, of course, 
responding to a hypothetical, that if this program were delayed 
by 5 years we would need to move the newly trained staff on the 
order of 300 to 600 people to other currently undefined 
programs or lose staff by attrition.
    And if we ever had to restart that program we would have 
difficulty in recruiting and rehiring new people do that. Same 
comments from the other parts of the nuclear security 
enterprise.
    As I mentioned earlier, we have very carefully phased 
programs in terms of our life extension programs. As we finish 
work on one or two of them concurrently we are ready to move 
into the next program using many of the same skilled workforce, 
many of the same processes, many of the same components that 
are made in Kansas City and elsewhere.
    So if you have a 1 to 2 or 3-, 4-, 5-year gap because of a 
decision to cancel a program or because of, you know, lack of 
funding or extended, you know, CRs [continuing resolutions] or 
whatever the case may be, it has an impact on our ability to 
get these jobs done on budget and on time.
    Mr. Rogers. The gentlelady's time has expired. I thank the 
panelist.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman and thank all of 
you. General Rand, it is good to see you again.
    And Admiral Haney, appreciate you.
    I don't know the rest of you quite as well, but I 
appreciate you for being here.
    Mr. Chairman, I have a small document that was put together 
by my staff and it sort of highlights the list of quotes from 
some of the senior DOD officials about why we believe that LRSO 
is so important. And I am asking for unanimous consent to allow 
it to be put in the record.
    Mr. Rogers. Without objection so ordered.
    [The information referred to can be found in the Appendix 
on page 96.]
    Mr. Franks. Thank you.
    I might just read a couple of quotes off it, Mr. Chairman. 
From Secretary of Defense Carter in May of last year, he said 
the reason for the advanced cruise missile is to replace the 
missile that exists now, in recognition of the fact that air 
defenses are improving around the world and that keeping that 
capability to penetrate air defenses with our nuclear deterrent 
is an important one.
    ``I think it is important to continue to have a penetrating 
air-breathing missile for nuclear deterrence.'' That is 
Secretary Carter.
    Second one from Under Secretary of Defense Frank Kendall. 
``As potential adversaries acquire more advanced air defenses 
and nuclear forces, the credibility of our nuclear standoff 
capability will undoubtedly deteriorate.''
    ``Our allies will feel this deterioration most acutely. And 
without the LRSO's advanced standoff capabilities, the bomber 
leg of the triad will gradually become a symbol of our decline 
rather than a bellwether of our enduring American strength.''
    Admiral Haney and General Rand, I wanted, if I could, to 
ask both of you your professional military views on the LRSO. I 
know you guys have talked about it since before I got here, and 
I apologize that I missed it. But it is in my mind important 
enough to maybe reiterate anything that you feel would be 
necessary.
    Can you describe the military requirements that are driving 
the need for the LRSO? And how do deterrence requirements, 
aging in our current cruise missile and bombers, and 
developments in other nations influence this need for the LRSO?
    And I will start with you, Admiral Haney, and then to 
General Rand.
    Admiral Haney. Thank you for the question, Congressman 
Franks. The LRSO is very important to strategic deterrence, 
assurance, extended deterrence, and strategic stability. Right 
now, since we have the air-launched cruise missile, consistent 
with some of the quotes you read, to not have that kind of 
capability would be very destabilizing.
    It would also make a less complex problem for any 
adversary. And since we do have adversaries that have nuclear 
weapons it is important that our deterrence capability is 
credible going into the future.
    And we also have nations that have invested in not only 
their nuclear arsenal but into anti-access/area-denial kind of 
capability. And that in itself has to be dealt with.
    So we don't want to dilute this problem for any adversary. 
We want to make sure that deterrence works----
    Mr. Franks. Yes.
    Admiral Haney [continuing]. Not just now but well into the 
future and consequently we need that kind of capability.
    I will turn it over to General Rand.
    General Rand. Sir, as I mentioned earlier, professional 
airman for 37 years now and the enemy gets a vote. And the 
improvements in the anti-access and area-denial that the enemy 
now possesses and will continue to improve upon over the next 
10 to 15 years, makes a long-range standoff capability critical 
for us to be able to put bombs on target, our missiles on 
target, that are intended to make it to the desired target. So 
we need that capability.
    The current ALCM, air-launched cruise missile, has aged 
out. It is already 30 years old. It is increasingly difficult 
to make it reliable, keep it reliable, and it is going to be 
darn near impossible for it to be survivable----
    Mr. Franks. Yes.
    General Rand [continuing]. If it is needed in the future.
    Mr. Franks. Well, I guess I would be disingenuous if I 
wasn't glad you said what you just said. Let me just add one 
other layer to it. In your professional military judgments, 
what would be the consequences of choosing to delay or cancel 
the LRSO program?
    I know it is probably you are just reiterating some of 
the--but what about the delay? What----
    Admiral Haney. A delay would put us at significant risk of 
impacting our air leg of the triad. Particularly important when 
you look at my air leg today it is primarily made up of B-52s. 
So being able to have that capability, not just today, it is a 
platform that will serve us well into 2040. And consequently 
that is why it is also important.
    And as we look at future platforms their ability to have 
standoff capability as we see these advances in air threats and 
what have you, will be very important so that we can maintain 
strategic stability.
    General Rand. I am the force provider of our nuclear forces 
to Admiral Haney and the President, and I would have to tell 
Admiral Haney that if we continue to rely on the ALCM past 2030 
it would be very difficult for me to be able to provide the 
resources that he needs to accomplish the mission.
    Mr. Franks. Thank you, gentlemen. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The gentleman's time has 
expired.
    The Chair will now recognize the gentleman from California 
for any additional questions he may have.
    Mr. Garamendi. First of all, if I might put into the record 
two pieces of writing, one by our ranking member of the 
committee, Mr. Smith, and another one by former Secretary of 
Defense, Mr. Perry?
    Mr. Rogers. Without objection so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 98.]
    Mr. Garamendi. Thank you. Secondly, Mr. Chairman, when I 
approached you a few moments ago you were saying that it was 
fair that everybody have a chance to speak, and indeed that is 
true.
    But perhaps because my colleagues are not here and perhaps 
because there are not as many of us on this side as there are 
on your side, fairness would seem to be more along the line of 
equal time. If that were the case, I would request exactly 41 
minutes of questioning so that our side would have equal time 
with your side. Is that possible, Mr. Chairman?
    Mr. Rogers. Committee rules were established at the 
beginning of the Congress. That is not the way the rules work.
    Mr. Garamendi. It is on the floor.
    Mr. Rogers. Not in committee.
    Mr. Garamendi. So I guess the answer is no. Therefore I 
will take 3 minutes and 48 seconds to try to respond to the 
questions here. But first let me congratulate you and your 
staff and your members for putting together a terrific show. 
One-sided to be sure, and the kind of questions that the 
American public should be asking, including questions about 
cost.
    Mr. Scher, you were the most disingenuous hearing 
representative of numbers I have yet heard in this committee. 
And I must tell you I am very, very disappointed in you because 
you disassembled the truth by eliminating from the discussion 
extraordinary costs associated with the bombs, with the command 
and control, the production facilities, and the cleanup. So 
understand my disappointment. Your numbers are bullshit.
    Now, a couple of questions. Admiral Haney, Secretary Scher, 
the United States has uncontested conventional superiority, 
does it not? Conventional superiority?
    Admiral Haney. I----
    Mr. Garamendi. We also have undetectable submarines. 
Admiral Haney, thank you for your testimony here today about 
the submarines and whether they are detectable or not in two 
different questions, one from mine and one from one of my 
colleagues here.
    It certainly gives a second strike capability. Does those 
submarines also give us first strike capability? Admiral?
    Admiral Haney. Well, first of all I would say our 
conventional capability is----
    Mr. Garamendi. That is not the question I am asking. I am 
asking the question about the submarines, first strike, second 
strike. Submarines good for both?
    Admiral Haney. The submarine leg is designed to be the most 
survivable leg in order to provide us the second strike 
capability. But clearly the President could decide how he would 
want to use the capability. The only----
    Mr. Garamendi. So the answer is yes they are good for first 
strike as well as second strike.
    Admiral Haney. They could be, yes.
    Mr. Garamendi. Yes, they could. How much redundant--what is 
this all about? And the questions here and the discussion here 
would indicate that we are looking at these nuclear weapons for 
conventional, for normal warfare. Is that correct?
    Or is it only to deter any nuclear? What are we talking 
about here? What is this all about, the fundamental question?
    Admiral Haney. I think first and foremost, in terms of 
references, you go back to the Nuclear Posture Review, it 
specifically cites that we have nuclear weapons in order to 
provide nuclear deterrence for our country, assurance for our 
allies. If deterrence fails, it is also my job to provide 
options to the President in order to carry out his orders.
    Mr. Garamendi. So it is about deterrence. That is what 
these nuclear weapons are for, deterrence?
    Admiral Haney. It is to deter strategic--to deter nuclear 
war, but if deterrence fails let no adversary have any doubt 
that we have plans in order to deal with that, that have been 
also articulated in the employment guidance for the nuclear 
weapons.
    Mr. Garamendi. Okay. Do we then consider these weapons also 
for conventional war?
    Admiral Haney. Congressman, I think you know we have 
conventional options. And to your first point you said we have 
significant conventional capability. But conventional weapons 
will not deter nuclear capability from an adversary.
    Mr. Garamendi. So the answer is yes?
    Admiral Haney. The answer is the answer I gave.
    Mr. Garamendi. Well, then I will interpret your answer as 
yes.
    Admiral Haney. You want yes/no answers. I am not into that 
game. I am a commander of significant military capability. 
Deterrence is an important issue for our Nation's--our Nation's 
survivability. Nuclear weapons provide an existential threat to 
our country.
    Mr. Garamendi. Indeed.
    Admiral Haney. And we have to deal with it from a 
deterrence standpoint and an assurance standpoint to our 
allies.
    Mr. Garamendi. Well, I would agree with you that the 
principal purpose, in fact, the only purpose is to deter the 
use of nuclear weapons in any circumstance.
    Well, I have gone 43 seconds into my request for 41 
minutes. I guess I had best quit.
    Mr. Rogers. The gentleman's time has expired.
    The Chair would make note of the fact that Mr. Scher has 
demonstrated himself to be nothing but competent, candid, and 
forthright in his responses before this committee in every 
appearance, including this one.
    Mr. Garamendi. Well, I disagree.
    Mr. Rogers. I have already noted that.
    Mr. Scher, you are welcome to take the floor and make any 
statements if you would like to, and you don't have to if you 
don't want to.
    Mr. Scher. I can't imagine there is anything I would say 
that would solve the problem that Congressman Garamendi has 
presented.
    Mr. Rogers. Great. I do have one last question. And by the 
way, you will be pleased to know because we have had such a 
very fruitful dialogue here today we are not going to have a 
classified annex session.
    But I would like to close, you know, I have met with all of 
y'all before this hearing and one of the questions I have got 
is if in fact the administration did choose to go down the path 
of either delaying or attempting to delay or terminating the 
LRSO or GBSD, as a practical matter how would they do that?
    Mr. Scher, do you have a thought?
    Mr. Scher. I think that is a question I have thought about 
as well. Obviously the fiscal year 2017 budget, which is still 
the position of the administration, is up here on the Hill for 
action. So obviously you all have in your hands that issue.
    Certainly we will work on and could develop another budget, 
but that would be for the next term to do. But I would 
emphasize that at this point the decisions that hold, the 
President submitted to the Congress, are the position of the 
Department and the administration.
    Mr. Rogers. Anybody have anything else to add to that 
about--your thoughts on that? General Rand.
    General Rand. Sir, earlier it was stated that as I almost 
welcomed to take on questions about--on that I was daring. My 
job is a force provider.
    I have two legs of the triad that I am responsible for. 
They are old. They are wearing out. And if I am asked to 
provide forces to do a mission, I have to be candid and tell 
you there will come a point where I cannot do it with existing 
capabilities because they are not reliable or they will not be 
survivable.
    I am acutely aware of the costs associated with this. I 
will give the consequences if we do not replace these aging, 
wore out systems. Other people decide if we are going to have 
the triad. I am going to tell you what will happen if we 
continue to use and rely on the things that we currently have. 
We need to modernize.
    Mr. Rogers. Great. Thank you all. This Congress and this 
administration cannot do its job effectively without the wise 
counsel of individuals such as yourselves. And we appreciate 
what you have done for our country heretofore, and what you 
have done for us here today.
    And with that, this committee is adjourned.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 14, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 14, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 14, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 14, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. ZINKE

    Admiral Haney. Details concerning Triad operating costs are 
included in the annual Report on the Plan for the Nuclear Weapons 
Stockpile, Nuclear Weapons Complex, Nuclear Weapons Delivery Systems, 
and Nuclear Weapons Command and Control System [as specified in Section 
1043 of the National Defense Authorization Act for Fiscal Year 2012]. 
The operations and sustainment (O&S) costs for nuclear delivery systems 
include legacy system operations and maintenance and associated 
personnel to support those systems.
    The Ohio-class submarine and Trident II (D5) ballistic missile 
approximate average annual O&S cost is $4.2B (FY16-FY20). The 
Intercontinental Ballistic Missile (ICBM) force approximate O&S annual 
cost average is $1.5B (FY16-FY20). Finally, the strategic bomber and 
air delivered weapon approximate O&S annual cost average is $2.8B 
(FY16-FY20).   [See page 27.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 14, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Secretary Scher, does the Department of Defense believe 
President Obama's nuclear modernization plans are undercutting nuclear 
nonproliferation efforts? Do our allies fear that recapitalizing the 
U.S. nuclear triad, building the LRSO cruise missile, and life-
extending our nuclear warheads is creating a new nuclear arms race?
    Mr. Scher. The U.S. modernization program is fully consistent with 
the Administration's nonproliferation efforts and is not triggering a 
nuclear arms race; it is designed to decrease the likelihood of a 
future arms race. We are decreasing the number of nuclear warheads and 
types of delivery systems in the arsenal, not increasing them. The 
Administration's plan focuses on sustaining and modernizing the 
platforms, delivery systems, and warheads of our current triad to 
preserve existing military capabilities in the face of evolving 
threats, rather than developing new nuclear weapons with new military 
capabilities. This approach decreases the likelihood of a future arms 
race by maintaining a deterrent capability that is robust and stable, 
rather than one that is necessarily reactionary to every move by 
potential adversaries. Our allies and partners in both Europe and Asia 
are counting on U.S. nuclear modernization to enable the continuance of 
extended deterrence commitments that help assure them they do not need 
to pursue their own nuclear arsenals.
    Mr. Rogers. Secretary Scher, does the building of the LRSO nuclear 
cruise missile result in a more ``usable'' weapon that the existing 
cruise missile? Is it going to lower the nuclear-use threshold and be 
used for nuclear warfighting--or does it strengthen deterrence?
    Mr. Scher. Like all U.S. nuclear weapons, the fundamental role of 
the Long-Range Standoff (LRSO) cruise missile is to deter nuclear 
attack. LRSO will not be more ``usable'' than the existing AGM-86B Air-
Launched Cruise Missile (ALCM) it replaces. Rather, it is critical for 
maintaining the range of explosive yields and response options 
currently available to the President for deterring and, if necessary, 
responding to nuclear attack. Retaining capabilities that maintain 
credible means for responding to a nuclear attack strengthens our 
ability to deter such an attack from ever taking place. The United 
States has long maintained a high threshold for contemplating nuclear 
use. Sustaining the capability currently provided by the ALCM will not 
lower the threshold for U.S. nuclear use.
    Mr. Rogers. Secretary Scher, do you think President Obama's nuclear 
modernization plan is affordable? What are its costs in both an 
absolute sense and a relative sense--compared to the defense budget or 
the Federal budget, for instance? How do nuclear recapitalization costs 
compare to broader conventional recapitalization costs within DOD?
    Mr. Scher. Sustaining effective nuclear deterrence is the highest 
priority of the Department of Defense (DOD). The Administration's 
nuclear modernization program is affordable if prioritized 
appropriately by the Department, Congress, and the Nation. DOD 
estimates that the total cost for recapitalizing our nuclear forces 
will be in the range of $350-$450B over the next twenty years. To put 
this in context, the total defense budget in FY 2016 alone is $580B. 
Annual costs for nuclear modernization, which are separate from nuclear 
sustainment and operations, are projected to peak in the late 2020s at 
3-4 percent of FY 2017-level annual DOD spending, or about the 
equivalent of 11 percent of the DOD's total FY 2017 acquisition budget, 
if projected out assuming 2 percent annual inflation.
    Sustaining effective nuclear deterrence is the highest priority of 
the Department of Defense (DOD). The Administration's nuclear 
modernization program is affordable if prioritized appropriately by the 
Department, Congress, and the Nation. DOD estimates that the total cost 
for recapitalizing our nuclear forces will be in the range of $350-
$450B over the next twenty years. To put this in context, the total 
defense budget in FY 2016 alone is $580B. Annual costs for nuclear 
modernization, which are separate from nuclear sustainment and 
operations, are projected to peak in the late 2020s at 3-4 percent of 
FY 2017-level annual DOD spending, or about the equivalent of 11 
percent of the DOD's total FY 2017 acquisition budget, if projected out 
assuming 2 percent annual inflation.
    Mr. Rogers. Secretary Scher, you chair a key committee within NATO 
related to nuclear and deterrence planning. Based on its most recent 
communique from the Warsaw Summit, does NATO support a nuclear no-
first-use declaratory policy? What would be the impacts to NATO if the 
U.S. were to declare a nuclear no-first-use policy of its own?
    Mr. Scher. NATO's nuclear declaratory policy was most recently 
reiterated in the Warsaw Summit: the fundamental purpose of NATO's 
nuclear capability is to preserve peace, prevent coercion, and deter 
aggression. This policy was developed in the context of the current 
U.S. declaratory policy. The circumstances in which NATO might have to 
use nuclear weapons are extremely remote, but if the fundamental 
security of any of its members were threatened, NATO has the 
capabilities and resolve to impose costs on an adversary that would be 
unacceptable and far outweigh the benefits that an adversary could hope 
to achieve. Any decisions regarding changes to U.S. nuclear declaratory 
policy should be done in consultation with our allies, including NATO, 
to ensure that our allies remain confident of our nuclear security 
commitments.
    Mr. Rogers. Secretary Scher, as we've discussed before, I'm deeply 
worried about what I consider to be a failure to respond to Russia's 
violation of the INF treaty. I believe such failure emboldens Russia to 
act illegally in a manner of ways, not just on this treaty. So, I ask 
you, do you believe Russia has paid a price for its violation of the 
INF treaty? In what way?
    Mr. Scher. Yes. Russia's violation of the INF Treaty is a serious 
challenge to the security of the United States and its allies and 
partners; however, the development of Russia's INF Treaty-violating 
system is only part of an overall pattern of Russia's recent coercive 
and aggressive behavior. The Administration determined the best 
approach is to consider Russian actions with regard to the INF Treaty 
in the context of this overall bellicose behavior, and to respond 
across a range of areas. The Department of Defense (DOD) identified a 
range of military responses to Russia's intermediate-range 
capabilities, including Russia's Treaty-prohibited ground-launched 
cruise missile. The responses included active defenses to counter 
intermediate-range strike systems, counterforce capabilities to prevent 
Russian intermediate-range strikes, and countervailing strike 
capabilities to enhance U.S. or allied forces. These investments, taken 
together, form a comprehensive response to the broader strategic 
environment, including Russian military actions, Russia's aggressive 
behavior, and its violation of the INF Treaty. The responses will make 
impose a cost on Russia for aggressive behavior, to include actions 
that they may consider in the future, and include a range of efforts 
pursued unilaterally, bilaterally with allies and partners, and also 
collectively with the NATO Alliance.
    For example, DOD plans to continue the European Reassurance 
Initiative (ERI), with $789.3 million requested in Fiscal Year (FY) 
2016. Under the ERI, the United States has increased our persistent, 
rotational air, land, and sea presence in the Baltics and in Central 
Europe to reassure Allies and to deter Russian aggression. ERI also 
enables the United States to expand bilateral and multilateral 
exercises in Europe to improve interoperability and to strengthen U.S. 
warfighting capability in the face of newer threats from Russia. DOD is 
seeking funding for ERI in FY 2017.
    Mr. Rogers. Secretary Scher, what are the counterintelligence risks 
of allowing China to inspect our THAAD site in South Korea, once that 
missile defense capability has been deployed? Can you commit to this 
committee that we will have access to any intelligence assessment done 
to evaluate this question before the Administration makes any decision 
to allow such access?
    Mr. Scher. The Department of Defense currently has no plans and has 
made no decisions regarding third-party access to a future Terminal 
High-Altitude Aerial Defense (THAAD) site in the Republic of Korea. 
Regarding any intelligence assessment of the site, we would defer to 
the Intelligence Community on releasability questions.
    Mr. Rogers. Admiral Haney, in your capacity as commander of 
Strategic Command, would you find yourself more likely to recommend to 
a President that he use an LRSO than you would with our current air-
launched cruise missile? Is LRSO more ``usable'' in your mind--and 
therefore more likely to be used?
    Admiral Haney. As stated in the 2010 Nuclear Posture Review, the 
use of nuclear weapons would only be considered in extreme 
circumstances to defend the vital interests of the United States and 
its allies. As such, the Long Range Standoff (LRSO) cruise missile will 
not be ``more usable'' than the current Air Launched Cruise Missile 
(ALCM).
    The LRSO program replaces the aging ALCM which has far exceeded its 
originally planned service life. The LRSO will continue to provide the 
President an effective nuclear standoff capability to address a range 
of contingencies in non-permissive environments.
    Mr. Rogers. Admiral Haney, the administration has sought further 
reductions in deployed strategic nuclear forces beyond the levels in 
the current New START Treaty. Do you believe these further reductions 
should be done unilaterally, or must they be done in concert with 
Russia via a bilateral and verifiable treaty? Are more robust and 
intrusive verification measures needed at such lower force levels?
    Admiral Haney. Any proposal to change our deployed strategic 
nuclear forces beyond the levels in New START should be examined within 
the context of a bilateral and verifiable treaty architecture. Such a 
path moving forward offers the best means to preserve strategic 
stability through qualitative and quantitative parity.
    More robust verification measures are not necessarily needed at 
lower force levels. There is not a simple tradeoff between lower force 
structure levels and more robust and intrusive verification measures. 
Over the course of numerous U.S.-Russia arms control agreements both 
parties have approved sufficient measures to achieve verification. The 
challenge is in determining what verification mechanisms are 
appropriate. It would be premature to provide an assessment on the 
necessary verification measures without further information regarding 
the specific context of any proposed negotiations at lower force 
levels.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Several independent estimates place DOD and NNSA costs 
associated with the nuclear deterrence mission over the next 30 years 
at approximately $350 billion per year for the next 10 years. These 
costs for modernization will grow significantly in the late-2020s, with 
the nuclear deterrence mission potentially costing about a trillion 
dollars over 30 years. Please provide further information detailing 
Secretary Scher's assessment of $350-$450 billion over 20 years for 
nuclear modernization/recapitalization.
    General Klotz. This question would be more appropriate for DOD to 
answer.
    Mr. Cooper. What are the risks and benefits of a no-first-use 
policy? Under what circumstances would the U.S. benefit from using 
nuclear weapons first?
    Mr. Scher. Adopting a no-first-use policy could, in theory, be 
beneficial if it reduced the risk of nuclear attack or coercion against 
the United States and its allies, or otherwise led nuclear-armed 
potential adversaries to reduce the role of nuclear weapons in their 
security strategies. The risk of adopting a no-first-use policy is that 
it might instead undermine deterrence and weaken our ability to assure 
allies and partners that they do not need their own nuclear arsenals.
    We will not speculate about the benefits and risks of using nuclear 
weapons in hypothetical scenarios; however, we should be clear that the 
purpose of U.S. nuclear weapons is to deter nuclear attack on the 
United States and its allies and partners, deter other threats against 
U.S. and allied vital interests, and achieve U.S. objectives if 
deterrence fails. Therefore, we must assess alternative declaratory 
policies not only for the impact they might have on U.S. employment 
decisions, but also for how potential adversaries and U.S. allies and 
partners would perceive those policies and the consequent effect they 
would have on extended deterrence, assurance, and our nonproliferation 
objectives.
    Mr. Cooper. Do you believe we could control escalation once a 
nuclear weapon is used?
    Mr. Scher. No one should have absolute confidence in their ability 
to control escalation in a conflict between States with nuclear 
arsenals postured to ensure second-strike capabilities. This 
understanding underscores our view that the fundamental role of nuclear 
weapons is to deter nuclear attack against the United States, its 
allies, and partners. However, effective deterrence requires a balanced 
approach to escalation risk. We must be prepared if an adversary 
creates a conflict and drives it across the nuclear threshold; we do 
not want to simply assume that if the nuclear threshold is crossed that 
escalation cannot be limited. We are tasked with providing the 
President with credible options for responding to nuclear threats and 
nuclear aggression, including responding to limited nuclear use. 
Possessing an appreciation of escalation risk together with a range of 
options for responding to nuclear attack makes credible our message 
that adversaries cannot escalate their way out of failed conventional 
aggression.
    Mr. Cooper. What are the benefits and risks of doing away with 
launch-on-warning policy? What impacts, if any, could changes to this 
policy have on force structure?
    Mr. Scher. The United States does not have a launch-on-warning 
policy. We instead retain the option for the President to launch 
intercontinental ballistic missiles (ICBMs) under attack, while also 
planning to ensure that we are not reliant on doing so. The difference 
between launch-on-warning and launch-under-attack is attack assessment. 
Launch-under-attack is not based solely on a single warning indicator; 
rather, an attack assessment considers data from multiple sensors and 
the apparent intent of the incoming attack in the context of the 
international situation.
    This policy of retaining the option to launch under attack enhances 
deterrence of large-scale nuclear attack. Potential adversaries with 
large nuclear arsenals cannot be certain of their ability to destroy 
U.S. ICBMs because the President has the option of launching those 
forces before the incoming adversary strike reaches its targets.
    The capability to launch ICBMs before they are destroyed by an 
incoming attack does not place a requirement on the President to do so. 
Although the United States has the ability to launch its ICBMs promptly 
after an authenticated, encrypted, and securely transmitted order from 
the President, this does not mean our nuclear forces are on a ``hair-
trigger'' alert posture. The United States employs multiple, rigorous, 
and redundant technical and procedural safeguards to protect against 
accidental or unauthorized launch or a launch based on incorrect 
information.
    Eliminating the option to launch under attack would reduce 
Presidential flexibility, as the President would not have the option of 
launching ICBMs before an incoming strike destroyed all or a portion of 
them. This, in turn, would reduce uncertainty about the consequences of 
a large-scale nuclear attack against the United States. Eliminating 
launch-under-attack does not increase Presidential decision-time; it 
only takes away the President's option to decide.
    Eliminating the ability to launch under attack would not 
necessitate any changes in force structure, but eliminating the 
responsiveness of the ICBM force could lead to future requirements to 
bolster other elements of U.S. nuclear force structure and posture, 
such as bomber alert levels. Some argue that the United States could 
reduce the alert-level of our ICBMs if there was no ability to launch 
under attack. This change to our nuclear posture, however, would entail 
serious risks to strategic stability, because de-alerting ICBMs might 
incentivize an adversary to strike first in a crisis before forces were 
re-alerted. It would also degrade our ability to hold time-sensitive 
targets at risk with ICBMs.
    Mr. Cooper. The 2010 Nuclear Posture Review stated that the use of 
nuclear weapons would only be contemplated in the most extreme 
circumstances to defend U.S. or allied survival. Is this still the 
policy of the United States? And in this context, would the use of low-
yield nuclear weapon be required as a response to a potential use of a 
low-yield nuclear weapon by Russia?
    Mr. Scher. The policies laid out in the 2010 Nuclear Posture Review 
Report remain in effect. The fundamental role of U.S. nuclear weapons, 
which will continue as long as nuclear weapons exist, is to deter 
nuclear attack on the United States, its allies, and partners. The 
United States would only consider the use of nuclear weapons in extreme 
circumstances to defend its vital interests.
    The nuclear and conventional forces of the United States support a 
range of options available to the President for responding to nuclear 
attack, including options for responding to an adversary's potential 
use of a low-yield nuclear weapon. Determining what response best 
serves the security interests of the United States and its allies and 
partners is a Presidential decision. There is no required response to 
any specific type of adversary attack.
    Mr. Cooper. Several independent estimates place DOD and NNSA costs 
associated with the nuclear deterrence mission over the next 30 years 
at approximately $350 billion per year for the next 10 years. These 
costs for modernization will grow significantly in the late-2020s, with 
the nuclear deterrence mission potentially costing about a trillion 
dollars over 30 years. Please provide further information detailing 
Secretary Scher's assessment of $350-$450 billion over 20 years for 
nuclear modernization/recapitalization.
    Mr. Scher. The Department of Defense (DOD) Office of Cost 
Assessment and Program Evaluation estimates that the total cost of 
recapitalizing U.S. nuclear forces will be $350 billion-$450 billion 
over the next twenty years. DOD will continue to refine its estimate as 
a number of modernization programs mature in the coming years.
    This estimate covers the full cost of recapitalizing the nuclear 
weapon delivery systems and warheads of the U.S. strategic triad. It 
includes the Ohio Replacement Program submarine; the Ground-Based 
Strategic Deterrent; the Long-Range Standoff cruise missile; the Air 
Force tail kit assembly for the B61-12 gravity bomb; and the full cost 
of the B-21 bomber (even though this aircraft is also being developed 
to meet conventional warfighting requirements). It also includes 
modernization of nuclear command, control, and communications. Finally, 
this estimate includes annual DOD funds reprogrammed to the National 
Nuclear Security Administration (NNSA) to support warhead modernization 
activities, including Life Extension Programs described in NNSA's 
Stockpile Stewardship Management Plan.
    The DOD estimate excludes nuclear force sustainment and operation, 
which are $12 billion in FY 2017. It also excludes NNSA infrastructure 
recapitalization, such as construction of new uranium and plutonium 
facilities. These additional costs are necessary for the United States 
to remain a nuclear weapons state irrespective of what our nuclear 
modernization plans entail.
    Mr. Cooper. Is there a military requirement to make the Long-Range 
Stand-Off Weapon have conventional capability?
    Admiral Haney. The Fiscal Year 2014 National Defense Authorization 
Act [Section 217(a)(1)] requires the Air Force develop a conventional 
variant of the LRSO prior to the retirement of the existing 
Conventional Air Launched Cruise Missile (CALCM). The CALCM retirement 
timeline has not been established and DOD does not have a specific plan 
for developing a conventional LRSO variant at this time.
    Mr. Cooper. What are the risks and benefits of a no-first-use 
policy? Under what circumstances would the U.S. benefit from using 
nuclear weapons first?
    Admiral Haney. As stated in the 2010 Nuclear Posture Review, the 
current policy is:
    The U.S. will continue to strengthen conventional capabilities and 
reduce the role of nuclear weapons in deterring non-nuclear attacks 
with the objective of making deterrence of nuclear attack on the United 
States or our allies and partners the sole purpose of U.S. nuclear 
weapons The U.S. would only consider the use of nuclear weapons in 
extreme circumstances to defend the vital interests of the U.S. or its 
allies and partners The U.S. will not use or threaten to use nuclear 
weapons against non-nuclear weapons states that are party to the 
Nuclear Non-Proliferation Treaty and in compliance with their nuclear 
non-proliferation obligations This policy is an important contributor 
to maintaining strategic stability. U.S. extended deterrence and 
assurance commitments ensure that our allies remain confident in our 
capabilities, with the added benefit of reducing the likelihood of 
nuclear proliferation. Beyond the implications this has for achieving 
Nuclear Non-Proliferation Treaty goals, the ability of the U.S. to 
dissuade nuclear weapon acquisition minimizes strategic risk. In short, 
the current policy promotes strategic stability and guarantees the 
safety and security of our allies under any scenario when their very 
existence and way of life may be threatened. Substantial analysis and 
dialogue should be conducted including specific analysis associated 
with U.S. allies and partner assurance perspectives to weigh the impact 
a ``No First Use'' policy would have. Among other things, such analysis 
should consider the following:
     ``No First Use'' policy removes ambiguity for U.S. adversaries 
Potential aggressors may not fear U.S. nuclear response even if they 
attacked with advanced conventional, chemical, and/or biological 
weapons. They would risk U.S. nuclear retaliation only if they attacked 
with nuclear weapons Allies and partners would no longer be assured via 
the U.S. nuclear umbrella. As such they may even consider acquiring 
their own nuclear weapons.
    Mr. Cooper. Do you believe we could control escalation once a 
nuclear weapon is used?
    Admiral Haney. Yes, I believe it may be possible but I hope to 
never find out. Efforts to control escalation must consider and employ 
all elements of national power via a whole of government approach. A 
military response, be it nuclear, conventional or non-kinetic, is 
merely one tool available to the President. As discussed in the 
``Report on Nuclear Employment Strategy of the United States'' 
specified in Section 491 of 10 U.S.C. (June 2013), the Presidential 
guidance ``. . . directs that DOD will maintain a sufficient, 
diversified and survivable capability at all times with high confidence 
and capability to convince any potential adversary that the adverse 
consequences of attacking the United States or our Allies and partners 
far outweigh any potential benefit they may seek to gain from such an 
attack. It also preserves the flexibility to respond with a range of 
options to meet the President's stated objectives should deterrence 
fail''. In keeping with this guidance, USSTRATCOM has developed options 
across the spectrum of potential responses, including nuclear options, 
in order to provide decision space to the President so he/she can 
respond appropriately to the conditions at hand. However, it is solely 
a Presidential decision if and when those options are executed.
    Mr. Cooper. What are the benefits and risks of doing away with 
launch-on-warning policy? What impacts, if any, could changes to this 
policy have on force structure?
    Admiral Haney. As discussed in the ``Report on Nuclear Employment 
Strategy of the United States'' specified in Section 491 of 10 U.S.C. 
(June 2013), the revised Presidential Guidance recognizes the 
significantly diminished possibility of a disarming surprise nuclear 
attack and directs DOD to examine further options to reduce the role 
Launch Under Attack plays in U.S. planning, while retaining the ability 
to Launch Under Attack if directed. Thus USSTRATCOM has developed 
options across the spectrum of potential responses, including nuclear 
options, in order to provide decision space to the President so he/she 
can respond appropriately to the conditions at hand. It is solely a 
Presidential decision if and when those options are executed.
    Mr. Cooper. The 2010 Nuclear Posture Review stated that the use of 
nuclear weapons would only be contemplated in the most extreme 
circumstances to defend U.S. or allied survival. Is this still the 
policy of the United States? And in this context, would the use of low-
yield nuclear weapon be required as a response to a potential use of a 
low-yield nuclear weapon by Russia?
    Admiral Haney. The 2010 Nuclear Posture Review remains the policy 
of the United States, to wit, ``the U.S. would only consider the use of 
nuclear weapons in extreme circumstances to defend the vital interests 
of the U.S. or its allies and partners.''
    How and when the United States uses a nuclear weapon is a 
Presidential decision. The current and planned conventional and nuclear 
force structures are specifically designed to provide the President 
with the best possible range of tailorable response options. This 
provides the President and his senior advisors with the flexibility to 
evaluate courses of action in light of a host of considerations.
    Mr. Cooper. Are you confident that the required changes in culture 
to improve the morale and performance of missileers are being 
implemented effectively? What challenges, if any, remain?
    General Rand. Yes. Over the last two years, we have worked very 
hard to improve the overall culture in the missile community, and we 
are now seeing the benefits of our efforts focused on manning, 
training, operations, equipment, infrastructure and morale. Our Command 
has built a culture of empowerment versus one of strict compliance, 
allowing our young and motivated officers to set and achieve goals, 
while distinctively recognizing and rewarding them for excellence in 
the nuclear enterprise.
    With respect to manning, we overhauled the missileer career path to 
retain experience and further promote the development of weapon system 
expertise. We are attracting talent with ROTC scholarships and active 
recruiting. Additionally, we repositioned instructors from centrally-
located wing organizations and moved them out to the operational 
missile squadrons. As part of this initiative, we've mandated 
instructors be on their second assignment as a missileer to ensure they 
have a wider breadth of knowledge to share with younger officers. We 
also added two field grade officers in leadership positions to every 
squadron. These actions provide our young missileers opportunities for 
daily mentorship, as well as guidance on viable options for career 
paths. As a result we have made more effective use of our human 
resources, while simultaneously promoting career development.
    On the training and operations front, we revised our AFGSC 
directives governing training, completely re-vamping our methods--from 
part-task training to mission execution. Mirroring other comparable 
USAF operations disciplines, we shifted to pass-fail testing and 
refocused the emphasis from test performance to training and learning. 
These combined efforts shifted our missileers' focus from grades to 
tasks, ultimately resulting in enhanced mission proficiency. 
Operationally, we've promoted stability in alert scheduling of missile 
crews through effective utilization of all wing assigned and qualified 
personnel, as well as established the means to monitor and detect if an 
organization exceeds established alert rate levels. Rigorous attention 
on scheduling of alert and training activities provides greater 
predictability and protects the time off of Missile Wing personnel.
    As a result of Force Improvement Funds, we acquired 95 new vehicles 
in FY14 for missileers and maintenance personnel to travel to their 
remote operating locations, and an additional 576 vehicles in FY15 and 
FY16 for all nuclear bases. With the FY16 NDAA $322M infusion for 
modernization of equipment and infrastructure at our installations, we 
were able to fund a new Weapons Storage Facility at F.E. Warren Air 
Force Base and a Tactical Response Force Alert Facility at Malmstrom 
Air Force Base. Looking forward, we are requesting $440M for future 
nuclear infrastructure requirements across the command. Our desire is 
to fund the Minuteman III and UH-1N replacement. In the last two years, 
we have made great strides to improve the Morale, Welfare and 
Recreation facilities at our bases. All our fitness centers have 
implemented 24/7 operating hours, providing access for all our Airmen, 
regardless of duty shifts. The Air Force Food Transformation Initiative 
continues to be implemented at our installations and will provide our 
Airmen more dining options with expanded menus. Additionally, we have 
expanded non-appropriated funds for locally-developed programs.
    Our challenge is to ensure we never return to the culture of old. 
To this end, I've established a directorate in my command to focus on 
leadership development, lessons learned and innovation. This helps 
promote the flow of ideas for improvement from the lowest levels in the 
field directly to myself. I personally chair a monthly council which 
reviews all our initiatives, fosters best practices, and allows for 
sharing of lessons learned between Wings and Numbered Air Forces. I 
receive regular status updates on our open force improvement items. I 
solicit input from my Commanders in the field where inefficiencies and 
redundancies exist that undermine our Airmen's time and weaken their 
motivation. I empower them to stop doing those things that take away 
our ability to fulfill our mission responsibilities and weaken morale.
    I appreciate your support as we continue to improve our nation's 
nuclear forces, ensuring our Strikers have the resources necessary to 
ensure they are always prepared to safely, securely and effectively 
carry out their duties which our nation has entrusted to them.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. General Klotz: How many plutonium pits are required 
for planned life extension programs? How many new pits are required?
    General Klotz. This information was previously provided to the 
Committee as part of the classified annex to the Fiscal Year (FY) 2017 
Stockpile Stewardship and Management Plan in April 2016. NNSA remains 
committed to achieving war-reserve (WR) pit production levels set forth 
in the FY 2015 National Defense Authorization Act, and agreed to as 
part of the Nuclear Weapons Council (NWC) Strategic Plan, to support 
stockpile requirements for newly-manufactured pits.
    Mr. Garamendi. Admiral Haney and General Klotz: How many pits are 
required to address geo-political surprise? What analysis was done to 
arrive at this number? Can you deliver this analysis to Congress? Why 
do we need to expand plutonium pit production capacity?
    General Klotz. The 2010 Nuclear Posture Review and 2013 Report to 
Congress on the Nuclear Employment Strategy (specified in 10 U.S.C. 
491) state that a non-deployed hedge, properly sized and ready to 
address technical risks, also fulfills the requirements of a 
geopolitical hedge. Pits are only one of many critical components in a 
nuclear warhead, and are managed to support all stockpile activities 
(e.g., life extension programs, surveillance, and aging concerns). The 
January 16, 2014 Assessment of Nuclear Weapon Pit Production 
Requirements Report to Congress confirmed the requirement for achieving 
50-80 pit per year production capacity by 2030. This requirement was 
codified by Congress most recently in the 2016 NDAA (Sec. 3140), and is 
informed by the following factors: 1) U.S. policy objectives to 
maintain a safe, secure and effective nuclear deterrent is contingent 
on the national capability to produce plutonium pits, 2) Pit aging 
studies conclude pits will not have unlimited lifetime, and even with 
pit reuse, plutonium work may be required to assure weapon safety, 
security, and long term reliability to preclude the need for weapon 
testing, and 3) The ability to produce plutonium pits in sufficient 
quantity and timeliness to address technical issues is essential to the 
long term reduction of the non-deployed weapon stockpile.
    To meet our commitments, as set forth in the Fiscal Year 2015 
National Defense Authorization Act and agreed to as part of the Nuclear 
Weapons Council (NWC) Baseline Plan, NNSA needs to produce newly-
manufactured pits to support future stockpile requirements. NNSA's 
current efforts to optimize existing infrastructure for plutonium 
operations at Los Alamos National Laboratory will support a maximum 30 
pits per year (ppy) production capacity by 2026. In order to achieve 
production capacity beyond 30 ppy and support future stockpile needs, 
additional infrastructure is required.
    Mr. Garamendi. Mr. Scher and Mr. Klotz, what is the plan to pay for 
nuclear modernization? Will the top line be raised or will other parts 
of the defense and energy budgets suffer? If so, which ones? Have 
discussions begun about how to pay for the nuclear enterprise during 
the coming bow wave in the 2020s and 2030s?
    General Klotz. Supporting the Administration's agenda to maintain a 
safe, secure, and effective nuclear weapons stockpile, modernizing our 
nuclear security enterprise, and reducing the threat of nuclear 
proliferation remains a top priority. I am confident that the FY 2017 
President's budget for NNSA will fully meet all of our national nuclear 
security requirements. We have a very clear and shared view of what 
those requirements are. DOD and DOE, through the Nuclear Weapons 
Council, continue to assess budgets and programs to meet requirements 
in the coming years. The budget projections for future years, FY 2018-
FY 2021, remain subject to the sequester caps set in the Budget Control 
Act of 2011.
    Mr. Garamendi. Mr. Scher, on page two of your written testimony you 
state that ``The modernization costs, spread over twenty years, will be 
an estimated $350B-$450B.'' You then stated during the hearing that 
this figure did not include some costs associated with nuclear 
modernization, such as life extension programs for warheads. Please 
provide the committee with the source and precise composition of this 
figure. What costs, programs, and operations does the $350B-450B figure 
include? What costs reasonably associated with the nuclear mission does 
it exclude (such as warhead modernization, command and control 
modernization, operations, pit production capacity expansion, etc.)?
    Mr. Scher. The Department of Defense (DOD) Office of Cost 
Assessment and Program Evaluation (CAPE) estimates that the total cost 
of recapitalizing U.S. nuclear forces will be $350 billion-$450 billion 
over the next twenty years. DOD will continue to refine its estimate as 
a number of modernization programs mature in the coming years. This 
estimate covers the full projected cost of recapitalizing the nuclear 
weapon delivery systems and warheads of the U.S. strategic triad. It 
includes the Ohio Replacement Program submarine; the Ground-Based 
Strategic Deterrent; the Long-Range Standoff cruise missile; the Air 
Force tail kit assembly for the B61-12 gravity bomb; and the full cost 
of the B-21 bomber (even though this aircraft is also being developed 
to meet conventional warfighting requirements). CAPE's recapitalization 
estimate also includes modernization of nuclear command, control, and 
communications. Finally, this estimate includes annual DOD funds 
reprogrammed to the National Nuclear Security Administration (NNSA) to 
support warhead modernization activities, including Life Extension 
Programs described in NNSA's Stockpile Stewardship Management Plan.
    The DOD estimate excludes nuclear force sustainment and operation, 
which are $12B in FY 2017. These costs would be necessary even if 
forgoing modernization and warhead life extension were a viable option. 
It also excludes NNSA infrastructure recapitalization, such as 
construction of new uranium and plutonium facilities, which like 
sustainment costs would be necessary even if forgoing force 
modernization were a viable option.
    Mr. Garamendi. Mr. Scher, you are the chairman NATO's Nuclear 
Planning Group. Can you describe the range of views our NATO allies 
have on the current U.S. nuclear modernization plan?
    Mr. Scher. As is the case in the United States, views in Allied 
governments are wide-ranging and I will not speak to the opinions of 
other nations individually. However, it is very clear, as was 
reaffirmed most recently in the Warsaw Summit Communique, that all NATO 
governments fully endorse the enduring importance to the Alliance of 
nuclear deterrence, along with the unique role the United States plays 
in maintaining that deterrence. This role depends in part on 
modernizing U.S. nuclear weapons to ensure that NATO's nuclear 
deterrence capability remains credible and effective.
    Mr. Garamendi. Mr. Scher and Mr. Klotz, what is the plan to pay for 
nuclear modernization? Will the top line be raised or will other parts 
of the defense and energy budgets suffer? If so, which ones? Have 
discussions begun about how to pay for the nuclear enterprise during 
the coming bow wave in the 2020s and 2030s?
    Mr. Scher. The nuclear modernization program is fully funded in the 
President's Fiscal Year 2017 Budget Request. Modernization is 
affordable if prioritized appropriately by the Department, Congress, 
and the Nation. The Department scrutinizes its budget submission 
annually and evaluates potential tradeoffs to align with both near- and 
long-term national defense priorities. DOD will continue to work with 
the White House in building future budgets to determine how best to 
fund the modernization of the nuclear enterprise.
    Mr. Garamendi. Under what circumstances would the U.S. consider the 
first use of the nuclear weapon? How do these scenarios influence 
military requirements and U.S. nuclear posture? How do these specific 
first-use scenarios affect the planned nuclear modernization?
    Mr. Scher. The United States would only consider the use of nuclear 
weapons in extreme circumstances to defend the vital interests of the 
United States or its allies and partners. In the case of countries not 
covered by our negative security assurance--States that possess nuclear 
weapons and States not in compliance with their nuclear non-
proliferation obligations--there remains a narrow range of 
contingencies in which U.S. nuclear weapons play a role in deterring a 
conventional, chemical, or biological weapon attack against the United 
States or its allies and partners.
    The U.S. nuclear modernization plan is designed to preserve 
Presidential flexibility to respond with a range of options to achieve 
U.S. and allied objectives should deterrence fail. Any potential 
specific first-use scenarios do not affect the planned U.S. nuclear 
modernization.
    Mr. Garamendi. Admiral Haney, is reducing our deployed nuclear 
forces in accordance with the New START Treaty in the national security 
interests of the United States? Would you support further, bilateral 
reductions below the current New START central limits?
    Admiral Haney. Yes, the New START Treaty preserves strategic 
equivalence between the United States and Russia. It is a useful 
component in preserving strategic stability. Both the U.S. and Russia 
are on track to achieve the New START Central Limits within the terms 
set by the treaty. Continuing to remain in compliance is prudent.
    U.S.-Russia arms control agreements are in the best interests of 
the both parties and the Euro-Atlantic community. If further bilateral 
reductions below the current New START central limits are contemplated, 
the reduction would require further analysis and scrutiny, including a 
deep understanding of the scale and scope of any proposed reductions.
    Mr. Garamendi. Admiral Haney: President Obama stated in 2013 that 
the United States could ``ensure the security of America and our 
allies--and maintain a strong and credible strategic deterrent--while 
reducing our deployed strategic nuclear weapons by up to one-third''. 
If a negotiated reduction could be reached, how would you recommend 
structuring U.S. nuclear forces if one-third fewer warheads? Would you 
recommend eliminating certain platforms? Rebalancing between legs of 
the triad? Simply reducing numbers with the same overall structure?
    Admiral Haney. The current U.S. nuclear force structure provides 
the President a flexible, reliable, and survivable range of deterrence 
and assurance options to meet our strategic stability objectives. As 
part of the New START deliberation process, the Department completed a 
very thorough analysis process to inform negotiations. I would 
recommend that any future force structure or deployed weapon changes, 
as part of a negotiated reduction, occur in a similar manner.
    The value of the Triad in maintaining strategic stability is not 
strictly related to deployed launcher or weapon numbers. As stated in 
the 2010 Nuclear Posture Review, the Triad provides an assured second 
strike capability and the ability to mitigate unexpected technological 
problems or operational vulnerabilities in any single Triad leg. 
Therefore, even at reduced deployed weapon levels, the U.S. should 
maintain a credible and effective Triad to maintain strategic stability 
and meet our deterrence objectives and assurance commitments.
    Mr. Garamendi. Admiral Haney: Please provide to the committee a 
list of consultants or contractors that STRATCOM uses for nuclear 
deterrence studies.
    Admiral Haney. USSTRATCOM conducts nuclear deterrence studies and 
related analytical activities to ensure we meet our primary mission of 
deterring strategic attack on the U.S. and our allies. Formal policy 
recommendations and strategic decision making are internal functions 
conducted primarily and routinely by military and government civilian 
staff. Periodically, USSTRATCOM utilizes external and independent 
organizations to provide their perspectives on strategic deterrence. 
External organizations consist of the University Affiliated Research 
Center (UARC) and the Deterrence and Assurance Academic Alliance.
    --The UARC is the academic outreach USSTRATCOM utilizes for nuclear 
deterrence studies and is a 5-year sole sourced Individual Delivery, 
Indefinite Delivery Indefinite Quantity (IDIQ) contract in partnership 
with the University of Nebraska. There is currently a contract 
agreement with the University of Nebraska which consists of five task 
orders supporting nuclear deterrence strategy and policy. The task 
orders are: Behavioral Influence, Deterrence Strategic Stage Set, Risk 
of Extended Deterrence, Development/Assessment of Narrative/Counter-
Narrative, and Horizontal and Vertical Nuclear Proliferation.
    --The Deterrence and Assurance Academic Alliance is not a 
contracted entity but is a collaborative partnership with 31 confirmed 
member universities and partners. Objectives of the alliance include 
developing the next generation of deterrence professionals, 
establishing relationships and continuous dialogue with Academia, and 
stimulating new thinking in deterrence and assurance studies. 
USSTRATCOM currently has eight student teams and advisors at local 
universities and three National Defense University USSTRATCOM Scholars 
conducting research on deterrence and assurance issues. The Strategic 
Advisory Group (SAG) is an independent organization not funded by or in 
contract agreement with USSTRATCOM. With the SAG, nuclear deterrence 
strategy and policy subject matter experts provide their strategic 
deterrence and assurance perspectives to CDRUSSTRATCOM.
    Mr. Garamendi. Admiral Haney and General Klotz: How many pits are 
required to address geo-political surprise? What analysis was done to 
arrive at this number? Can you deliver this analysis to Congress? Why 
do we need to expand plutonium pit production capacity?
    Admiral Haney. The 2010 Nuclear Posture Review and 2013 Report to 
Congress on the Nuclear Employment Strategy (specified in Section 491 
of 10 U.S.C.) states that a non-deployed weapon stockpile, properly 
sized and ready to address technical risks, also fulfills the 
requirements for addressing geopolitical surprise. Accordingly, pit 
quantities are managed to support the non-deployed weapon stockpile as 
well as all required stockpile sustainment and life extension 
activities to maintain a safe, secure and effective nuclear arsenal. 
The January 16, 2014 Assessment of Nuclear Weapon Pit Production 
Requirements Report to Congress confirmed the requirement for achieving 
50-80 pit per year production capacity by 2030. This requirement was 
codified by Congress most recently in the 2016 NDAA (Sec. 3140), and is 
informed by the following factors: 1) U.S. policy objectives to 
maintain a safe, secure and effective nuclear deterrent is contingent 
on the national capability to produce plutonium pits, 2) Pit aging 
studies conclude pits will not have unlimited lifetime, and even with 
pit reuse, plutonium work may be required to assure weapon safety, 
security, and long term reliability to preclude the need for weapon 
testing, and, 3) The ability to produce plutonium pits in sufficient 
quantity and timeliness to address technical issues is essential to the 
long term reduction of the non-deployed weapon stockpile.
    Mr. Garamendi. Admiral Haney, please describe the current level and 
frequency of dialogue between the United States Government and Russia 
on strategic matters, to include military-to-military communication. 
Are you currently facing any statutory restrictions which interfere 
with your ability to communicate with Russia and ensure strategic 
stability?
    Admiral Haney. U.S. and Russian officials regularly meet through a 
variety of bilateral and multilateral venues and at multiple levels. 
For instance, senior officials meet semiannually as part of the New 
START Bilateral Consultative Commission. Similarly, the Open Skies 
Consultative Commission holds working-level sessions on a monthly 
basis. More importantly, there are a wide array of regular and ad hoc 
meetings between U.S. and Russian governmental officials.
    While I lack awareness of all the intergovernmental interactions 
that occur with Russia, Public Law 114-92 (Fiscal Year 2016 NDAA) 
Subtitle E--Matters Relating to the Russian Federation ``Section 1246. 
LIMITATION ON MILITARY COOPERATION BETWEEN THE UNITED STATES AND THE 
RUSSIAN FEDERATION.'' does specifically address funding limitations for 
any bilateral military-to-military cooperation between the Governments 
of the United States and the Russian Federation pending certain 
actions.
    Mr. Garamendi. Under what circumstances would the U.S. consider the 
first use of the nuclear weapon? How do these scenarios influence 
military requirements and U.S. nuclear posture? How do these specific 
first-use scenarios affect the planned nuclear modernization?
    Admiral Haney. I would refer to the policy articulated in the 2010 
Nuclear Posture Review:
    <bullet>  The U.S. will continue to strengthen conventional 
capabilities and reduce the role of nuclear weapons in deterring non-
nuclear attacks, with the objective of making deterrence of nuclear 
attack on the United States or our allies and partners the sole purpose 
of U.S. nuclear weapons
    <bullet>  The U.S. would only consider the use of nuclear weapons 
in extreme circumstances to defend the vital interests of the U.S. or 
its allies and partners
    <bullet>  The U.S. will not use or threaten to use nuclear weapons 
against non-nuclear weapons states that are party to the Nuclear Non-
Proliferation Treaty and in compliance with their nuclear 
nonproliferation obligations
    Thus, first use may be considered ``in extreme circumstances to 
defend the vital interests of the U.S. or its allies and partners''. It 
is our policy not to specify what those ``extreme circumstances'' are 
in order to preserve Presidential decision space ensuring they have the 
ability to respond as appropriate to the crisis at hand. This ambiguity 
enhances deterrence.
    We develop options that can be executed across a range of 
capabilities. Whether they are executed is solely a Presidential 
Decision. ``First use'' does not drive or even directly affect our 
posture or modernization. The modernization program must continue to 
ensure that the nuclear force structure is safe, secure, and effective. 
Without a modernization program that is intended to address the three 
aforementioned attributes, U.S. senior leaders would have less 
effective options.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. AGUILAR
    Mr. Aguilar. In your testimony you estimated that modernization 
costs, spread over 20 years, would be an estimated $350B-$450B. 
However, during the hearing you mentioned that this estimate did not 
include the warheads, sustainment costs, or command and control among 
others.
    A) Do you have a 25-year estimated costs plan that not only 
includes modernization, but also warheads, sustainment, and command and 
control? If so, when will it be delivered to the members of this 
committee? If not, why not and when is the Department planning on 
producing such a document?
    B) If this estimate were extended to 30 years, would the Department 
then agree that nuclear modernization could cost an estimated 1 
trillion dollars as some commentators have predicted?
    Mr. Scher. The joint Department of Defense (DOD) and National 
Nuclear Security Administration (NNSA) nuclear weapons sustainment and 
modernization strategy is presented in the Nuclear Weapons Council 
Baseline Strategic Plan. The plan, which provides the basis for nuclear 
weapons budget planning, is a 25-year view summarizing the timelines 
for production and deployment of nuclear warheads, DOD delivery 
systems, and associated NNSA production infrastructure such as pit and 
tritium production. DOD generally does not develop 25-year program cost 
estimates. The DOD estimates that the total cost of recapitalizing U.S. 
nuclear forces will be $350 billion-$450 billion over the next 20 
years. This excludes sustainment and operation of the existing force, 
which currently costs about $12B per year. The recapitalization 
estimate includes modernization of nuclear command, control, and 
communications, as well as modernization of DOD delivery systems in all 
three legs of the U.S. strategic nuclear triad. It includes the full 
cost of the B-21 bomber, even though this aircraft is also being 
developed to meet conventional warfighting requirements. DOD's 
recapitalization estimate also includes annual DOD funds reprogrammed 
to NNSA to support warhead modernization activities, including Life 
Extension Programs described in NNSA's Stockpile Stewardship Management 
Plan. DOD will continue to refine its cost estimate as a number of 
modernization programs mature in the coming years. DOD's 20-year 
estimate for total nuclear modernization costs covers the bulk of the 
so-called bow wave of nuclear recapitalization funding. As a result, 
extending it from 20 to 30 years would not result in a significant 
proportional increase. The total costs for nuclear modernization over 
30 years will be far lower than $1 trillion.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY DR. WENSTRUP
    Dr. Wenstrup. Administrator Klotz, in your Tritium Report from last 
October, NNSA estimated costs for build-out of a national security 
enrichment capacity using the American Centrifuge technology--the only 
existing technology that is ready for use for national security 
purposes and which the report found to be ``the most technically 
advanced and lowest risk option for future production of unobligated 
enriched uranium.'' In generating these cost estimates, did NNSA also 
consider public-private partnerships, lease-to-own, or any other cost-
sharing mechanism that would lessen the burden on the taxpayer? If not, 
why not?
    General Klotz. As required by the Consolidated and Further 
Continuing Appropriations Act of 2015, the Department provided an 
analysis of the available uranium enrichment technology options and a 
preliminary cost and schedule estimate to build a national security 
train. The preliminary cost estimate used existing data for the most 
mature technology available at that time, the American centrifuge 
technology, and at the time, data was not available to analyze and 
develop an acquisition strategy. The Department is still conducting 
market research for its domestic uranium enrichment needs, and will 
issue a Request For Information (RFI) as soon as practicable to help 
determine industry interest and contracting mechanisms that would be in 
the Government's best interest.
    Dr. Wenstrup. Administrator Klotz, in December 2015 and January of 
this year, NNSA publicly stated that the kick-off of the acquisition 
process to obtain a domestic enrichment capacity was ``imminent,'' and 
that a Request For Information (RFI) related to a future program would 
be released within weeks, if not days. Six months later, no such RFI 
has been released. What is the timeline for issuing the RFI and how 
long do you expect the RFI period to run?
    General Klotz. The Department is still conducting market research 
for its domestic uranium enrichment needs, and will issue a Request For 
Information as soon as practicable.

                                  [all]
</pre></body></html>
